<html>
<title> - DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                       WEDNESDAY, APRIL 20, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:35 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Sam Brownback (chairman) 
presiding.
    Present: Senators Brownback and DeWine.

                          DISTRICT OF COLUMBIA

                                 Courts

STATEMENT OF HON. ANNICE M. WAGNER, CHIEF JUDGE, 
            DISTRICT OF COLUMBIA COURT OF APPEALS, AND 
            CHAIR, JOINT COMMITTEE ON JUDICIAL 
            ADMINISTRATION


               OPENING STATEMENT OF SENATOR SAM BROWNBACK


    Senator Brownback. The hearing will come to order. Thank 
you all for joining us this morning. Sorry for running just a 
little bit late. I wish we were holding the hearing outside. 
Such a beautiful D.C. day. And in the spring and the flowering 
trees and everything, it looks just gorgeous.
    I'm delighted to convene this hearing. It's my first as the 
chairman of the D.C. Appropriations subcommittee. I've 
previously served as the authorizing subcommittee chairman, but 
not the appropriations subcommittee chairman. And so, I'm 
delighted to be on this side, and pleased, also, to be joined 
by the immediate past-chairman of the D.C. Appropriations 
subcommittee, who did a great job with this subcommittee. And I 
look forward to carrying on his legacy and seeking his wisdom 
and counsel on how to do it, particularly on some issues with 
the Family Court. I was just over at the courts yesterday, and 
saw a little bit of the hallways there and some of the items 
done. I think we have made some nice progress there.
    The hearing today will be on the fiscal year 2006 budget 
request for the District of Columbia Courts, the Court Services 
and Offender Supervision Agency, and the Public Defender 
Service.
    Since the enactment of the National Capital Revitalization 
and Self-Government Improvement Act of 1997, the Federal 
Government has provided the sole source of funding for these 
three agencies.
    The President has requested $221.7 million for the courts 
in fiscal year 2006. This is $30.9 million more than the fiscal 
year 2005 enacted levels. I understand that the lion's share of 
this increase will be used to restore the now-vacant Old 
Courthouse so that it can house the Court of Appeals, which, in 
turn, will free up more space in the Moultrie Courthouse for 
the safe family/friendly Family Court. In addition, it will 
provide much-needed courthouse space. The renovation of the Old 
Courthouse will also be an important historical preservation 
achievement. This building is the fourth oldest in the District 
of Columbia and has great historic significance. It's where 
President Lincoln was first inaugurated--or, excuse me, where 
his first Inaugural Ball was held and where his assassination 
conspirators were tried and convicted. It's where Frederick 
Douglass had his offices, and where Daniel Webster practiced 
law.
    I'm also interested in hearing the progress that the courts 
are making in implementing the D.C. Family Court Act of 2001. 
The goals of this legislation are ``one family, one judge,'' 
exclusive jurisdiction of the Family Court, better training for 
judges and all staff, increased accountability of attorneys, 
judges, and staff, better technology to track cases, attorney 
dispute resolution, and better facilities to provide a safe and 
family friendly environment. I believe that the full 
implementation of this law is the most critical priority facing 
the D.C. Courts.
    The Director of the Court Services and Offender Supervision 
Agency (CSOSA) will also present this agency's fiscal year 2006 
budget request. CSOSA is responsible for supervising adults who 
are on pretrial release, probation, and/or parole, supervision 
in the District. The President's fiscal year 2006 budget 
request is $203.4 million for CSOSA, an increase of $23 million 
over the fiscal year 2005 enacted level.
    I'd like to hear how these additional resources will be 
used to further the agency's mission and goals. This 
subcommittee has appropriated funds specifically to enable 
CSOSA to reduce its caseload ratio for sex offenders, for 
domestic violence offenders, and for offenders with mental 
health problems. I'd like to hear whether these caseloads are 
continuing to decline.
    Also, this subcommittee has provided resources to allow 
CSOSA to purchase GPS anklet monitoring equipment to ensure 
that parolees are not venturing to places like schools and 
libraries, where they are prohibited. I'd like to know if the 
agency will be able to expand the use of this important 
monitoring technique, and if I can use it on my own children.
    Finally--Mike, you probably figured that out years ago, 
haven't you, on how to follow your own children?
    Finally, we'll hear from the Director of the Public 
Defender Service (PDS) for the District of Columbia, who will 
also present her agency's fiscal year 2006 budget request. PDS 
provides legal representation to indigent adults and children 
facing criminal charges in the District. PDS also provides 
legal representation for people in the mental health system, as 
well as to children in the delinquency system, including those 
who have special education needs due to learning disabilities. 
The President's budget request for PDS is $29.8 million, the 
same as the fiscal year 2005 enacted level.
    I want to thank you all for appearing here today. I've had 
a chance to meet several of you previously, and I've enjoyed 
those encounters. I'm in an input mode. I need information, and 
I look forward to that.
    The prepared statement of Senator Landrieu, the ranking 
member, will appear in the record at this point.
    [The statement follows:]

             Prepared Statement of Senator Mary L. Landrieu

    Good morning. I would like to welcome our new chairman, 
Senator Sam Brownback of Kansas today to his first hearing of 
the District of Columbia Appropriations Subcommittee. We are 
very fortunate to have Chairman Brownback joining the 
District's appropriations oversight committee as he had a hand 
in the shape and focus of this bill as the previous chairman of 
the authorizing subcommittee.
    Under Chairman Brownback's leadership in 1997 the D.C. 
Revitalization Act eliminated the $600 million Federal payment 
appropriated by Congress to the District. The Act transferred 
several functions of the D.C. government to full Federal 
responsibility, areas traditionally carried out at the state 
level: criminal justice and District employee pensions. I hope 
Chairman Brownback and I can focus this year on the effect of 
the Revitalization Act and we can do more to find the 
appropriate balance between the Federal government and the 
District.
    The District's criminal justice activities are under the 
direct oversight of this subcommittee and are comprised of the 
main entities here today: the D.C. Courts, the Court Services 
and Offender Supervision Agency (CSOSA) and the Public Defender 
Service. These agencies encompass the representation, 
adjudication, and supervision of offenders in the District. The 
final component of criminal justice, corrections, was 
successfully terminated by the closure of Lorton prison and the 
D.C. Correction's Trustee transition of all adult felons to the 
Federal Bureau of Prisons in December 2001. Corrections of D.C. 
adult felons are now the sole responsibility of the Federal 
system; some 6,400 D.C. inmates housed in the Bureau of Prisons 
are scattered in 77 prisons nationwide. Though we do not fund 
the corrections of D.C. adult felons, we do fund the challenges 
of re-entry and the impact of transition on the District 
community--particularly, the ability of offenders to maintain 
close ties with children and families.
    The CSOSA is the primary entity responsible for successful 
re-entry, as well as pre-trial and pre-sentencing supervision. 
I welcome Director Paul Quander back to the committee, thank 
you for your leadership and we look forward to your testimony. 
In fiscal year 2006 CSOSA requests an increase of $24.8 million 
(14 percent) from fiscal year 2005 and increases staff by 77 
for a total of 1,467 positions (a 6 percent increase in 
staffing). The main increase ($14.6 million) is to staff the 
new Re-Entry and Sanctions Center which will provide a 30 day 
intensive re-entry program for the highest risk offenders. The 
President recommends minor increases over fiscal year 2005 for 
the two other primary functions, Pre-Trial and Public Defender 
Service, to continue their critical services. I look forward to 
hearing from their directors, Susan Schaffer and Avis Buchanan, 
to explore the request further and discuss creative areas of 
supporting your functions.
    The other Federal component under this subcommittee's 
jurisdiction, the D.C. Courts, is responsible for the 
administration of justice of District residents accused of D.C. 
Code violations. I am glad to welcome back Chief Judge Annice 
Wagner and Chief Judge Rufus King. Congratulations are in order 
for Chief Judge Wagner, as I understand you are retiring soon. 
You have made a tremendous contribution, not only to the 
District, but to improving the administration of the Courts and 
their transition to Federal oversight.
    The Courts are requesting $342.7 million for fiscal year 
2006 operations of the court system and capital improvements. 
This is $151.9 million more than the enacted level in fiscal 
year 2005, which is a 79 percent increase. Of this increase, 
the majority is for the capital improvement plan for Judiciary 
Square, which entails major renovation of the five main 
buildings on the square. The President's request for fiscal 
year 2006 for the entire Court's is $221.7 million, which is an 
increase of $30.9 million from fiscal year 2005. We have much 
work to determine the needs of the Courts and how to meet them 
in a stretched Federal budget year.
    The Court's capital improvements request totals $192.8 
million which is an increase of $136.7 million over the fiscal 
year 2005 enacted level of $56 million. The Court's continue to 
budget for major construction and renovation by paying the 
entire cost up front. Though this is the preferred method of 
GSA, the Committee strongly encouraged the Court's to negotiate 
a phased funding approach and which lead to our approach of 
funding only the fiscal year 2005 needs last year. The 
President's request for capital is $83.5 million and continues 
the concept that major construction can be phased. The Court's 
proposed approach, a 243 percent increase from last year, is 
honestly un-affordable for the Federal government.
    The fiscal year 2005 conference report provided $56 million 
for Capital Improvements and directed the Courts to negotiate a 
phased payment plan with GSA. If, as the Court's staff 
provided, $31.7 million was provided for the Old Courthouse 
project, then $24 million was remaining. Why, within that $24 
million could the $6 million needed to keep the Family Court 
design on track not allocated?
    I understand the funding was tight, but it is sufficient 
for both projects. Money for design of the family court to the 
garage because the designs would have gone ``stale'' since they 
wouldn't be able to implement them until much later than they 
anticipated because we didn't provide the full funding. We 
should explore the issue of priorities in this hearing and I 
look forward to your views. However, let me be clear, creation 
of the Family Court has been the highest priority of this 
subcommittee; I know the Court's have not missed that point so 
I hope you pay the requisite attention to the facility.
    The President's recommendation for the D.C. Federal 
entities includes healthy increase and signals support for 
these important functions. This is not the case elsewhere in 
the Federal budget for programs which affect the entire nation. 
Chairman Brownback, I am pleased to be here to begin my fourth 
year as the ranking member of the D.C. Appropriations 
Subcommittee. I look forward to the testimony of our federal 
entities and to working with you in the coming year.

    Senator Brownback. Senator DeWine, thoughts?

                    STATEMENT OF SENATOR MIKE DEWINE

    Senator DeWine. Well, Mr. Chairman, let me just, first, 
congratulate you on becoming chairman of this subcommittee. I 
know that you will do a great job. I had the opportunity to 
serve, as you've indicated, as chairman of the subcommittee, 
with Senator Landrieu. I enjoyed working with her. I enjoyed 
working with our panelists. And it was my great pleasure to 
serve as chairman of the subcommittee.
    I know that you will do a great job, and I know you share 
my passion for children. Senator Landrieu and I had many 
focuses during the time that we passed the gavel back and 
forth, but probably our main focus was on children. And I know, 
from my experience with you and my discussions with you over 
the years, that you share that same passion. So, I look forward 
to working with you as we continue to work on issues such as 
the Family Court, foster care, adoption, and the other issues 
that are so very, very important for the District of Columbia.
    So, I welcome you and just look forward to working with you 
on the subcommittee, and I'm glad I'm still on the 
subcommittee. And we have a lot of work to do.
    Senator Brownback. Thank you, Senator DeWine, and I look 
forward to your input and thoughts on how we move forward.
    Presentations will be in the following order: the Honorable 
Annice Wagner, the Chief Judge, District of Columbia Court of 
Appeals, and Chair of the Joint Committee on Judicial 
Administration; then the Honorable Rufus King, III, Chief 
Judge, District of Columbia Superior Court; the Honorable Paul 
Quander, Jr., Director, Court Services and Offender Supervision 
Agency; and Ms. Avis Buchanan, Director of the District's 
Public Defender Service.
    Our timer clock is not working. If you can be in the 5- to 
7-minute ballpark, we will take your complete statements into 
the record, and that'll give us, I think, the best opportunity 
to also have some interaction.
    So, Judge Wagner, thank you for joining us. Good to see you 
again. Welcome.
    Judge Wagner. Good morning. Mr. Chairman, Senator DeWine, 
Senator Landrieu, and subcommittee members, thank you for this 
opportunity to discuss the fiscal year 2006 budget request for 
the District of Columbia Courts.
    As you know, I am appearing today in my capacity as Chair 
of the Joint Committee on Judicial Administration in the 
District of Columbia, which is the policymaking body for the 
District of Columbia Courts. I am also serving as Chief Judge 
of the District of Columbia Court of Appeals.
    My remarks this morning will summarize the request for the 
courts and highlight the courts' most critical priority, which 
is our capital budget. With me this morning is Chief Judge 
Rufus King, also Ms. Anne Wicks, our Executive Officer for the 
courts and Secretary to the Joint Committee, and we are all 
prepared to answer questions you may wish to pose concerning 
the courts' budget request.
    Unquestionably, we live in a changing environment, facing 
new challenges in our Nation and in our Nation's Capital and in 
our court system. Whatever challenges we face, the fair and 
effective administration of justice remains critical to our way 
of life in America.
    The District of Columbia Courts are committed to meeting 
these new challenges and the changing needs of a 21st century 
society. The District of Columbia Courts serve approximately 
10,000 courthouse visitors each day, process more than 200,000 
cases each year, and employ a staff of 1,200 who directly serve 
the public, process cases, and provide administrative support. 
The District of Columbia Courts are among the busiest and most 
productive court systems in the United States.
    In accordance with our strategic plan, we are undergoing 
significant changes to accommodate and apply new technologies 
and to ensure that the courts of this jurisdiction have a sound 
infrastructure. Notably, improved facilities are identified as 
a high priority among all constituency groups surveyed by the 
courts as the strategic plan was developed. Therefore, although 
we have requested funds for several important operating 
initiatives, the critical focus of our fiscal year 2006 budget 
request is our infrastructure; that is, all court buildings, 
information technology systems, and security essential for the 
protection of all who use and work in the courthouses. Only by 
investing in these areas will the courts be in a position to 
ensure that our facilities are in a safe and healthy condition, 
reasonably up to date, and that the type of security necessary 
to protect our citizens and our institutions is in place.
    The courts are responsible for four buildings in the 
historic Judiciary Square, and expect to have a fifth building 
returned to the courts' inventory this year. One of the 
original historic green spaces identified by Pierre L'Enfant's 
plan for the capital of a new nation, Judiciary Square is the 
subject of an urban renewal plan that the courts have developed 
in response to requirements of the National Capital Planning 
Commission.
    The courts have conducted extensive planning efforts; 
first, to evaluate and to address the physical condition of our 
facilities, and, second, to document and to address the courts' 
severe space shortage for court operations. The restoration of 
the Old Courthouse for use by the District of Columbia Court of 
Appeals is pivotal to meeting the space needs of the court 
system. An architectural jewel and the centerpiece of Judiciary 
Square, the Old Courthouse is one of the oldest public 
buildings in the District of Columbia, and you've already 
outlined some of its rich history.
    A picture of that Old Courthouse is right in front of me 
this morning.
    The architectural and historical significance of the Old 
Courthouse led to its listing on the National Register of 
Historic Places and its designation as an official project of 
Save America's Treasures. Investment in the Old Courthouse, 
however, is a practical solution to a space problem. It will 
enable the Court of Appeals to vacate 37,000 square feet of 
critically needed space in the Moultrie Courthouse, which was 
designed to meet the unique needs of a busy urban trial court, 
and it will free this space for Superior Court and for Family 
Court operations. Restoration of the Old Courthouse is the 
courts' highest priority in the fiscal year 2006 budget. We are 
pleased that Congress appropriated funds to finance the first 
phase of construction in fiscal year 2005, and expressed its 
commitment to fund the balance in fiscal year 2006. We are also 
pleased that the President has once again supported full 
funding for the Old Courthouse in his budget recommendation for 
fiscal year 2006.
    The President has recommended at least partial funding for 
most of the courts' priorities in the capital budget request, 
and we do appreciate that support. The courts' buildings range 
in age from 25 to 200 years old, and pose significant 
maintenance and modernization challenges. Deferred maintenance 
necessitated by many years of limited capital funding has led, 
of course, and expectedly, to increased costs for many 
projects. However, we have carefully examined the President's 
capital budget recommendation, and, although it is less than 
the courts' original request, we have found a way to reschedule 
project phases in order to continue, without interruption, the 
most important projects within the President's recommended 
funding level.
    Mr. Chairman and members of the subcommittee, the District 
of Columbia Courts have long enjoyed a national reputation for 
excellence. We are proud of the courts' record for 
administering justice in a fair, accessible, and cost-efficient 
manner. Adequate funding for the courts' fiscal year 2006 
priorities is critical to our success both in the next year and 
as we implement plans to continue to provide high-quality 
service to the community in the future. We appreciate the 
President's level of support for the courts' funding needs and 
the support that we have received from this body.

                           PREPARED STATEMENT

    We look forward to working with you throughout the 
appropriations process, and we thank you for this opportunity 
to discuss the fiscal year 2006 budget request of the courts.
    [The statement follows:]

                 Prepared Statement of Annice M. Wagner

    Mister Chairman, Senator Landrieu, Subcommittee members, thank you 
for this opportunity to discuss the fiscal year 2006 budget request of 
the District of Columbia Courts. I am Annice Wagner, and I am appearing 
in my capacity as the Chair of the Joint Committee on Judicial 
Administration in the District of Columbia. I also serve as Chief Judge 
of the District of Columbia Court of Appeals.
    As you know, the Joint Committee is the policy-making body for the 
District of Columbia Courts. By statute, its responsibilities include, 
among others, facilities, general personnel policies, accounts and 
auditing, procurement and disbursement, management of information 
systems and reports, and submission of the Courts' annual budget 
request to the President and Congress. This jurisdiction has a two-tier 
system comprised of the D.C. Court of Appeals, our court of last 
resort, and the Superior Court of the District of Columbia, a trial 
court of general jurisdiction, which includes our Family Court. 
Administrative support functions for our Courts are provided by what 
has come to be known as the Court System.
    My remarks this morning will summarize the request and highlight 
our most critical priority, our capital budget. With me this morning 
are Chief Judge Rufus King, III, Chief Judge of the Superior Court, Ms. 
Anne Wicks, the Executive Officer for the Courts and Secretary to the 
Joint Committee, and Mr. Joseph Sanchez, our Administrative Officer. We 
are prepared to answer questions you may wish to pose concerning the 
budget request for the Courts.

                              INTRODUCTION

    We live in a changing environment, facing new challenges to our 
nation, our Nation's Capital, and our court system. Whatever challenges 
we face, the fair and effective administration of justice remains 
crucial to our way of life. The District of Columbia Courts are 
committed to responding to the changing needs of our society and 
meeting these new challenges. We have been steadfast in our mission, 
which is to protect rights and liberties, uphold and interpret the law, 
and resolve disputes peacefully, fairly and effectively in the Nation's 
Capital. Through our Strategic Plan, finalized in fiscal year 2003 and 
now in the implementation phase, the Courts strive to enhance the 
administration of justice; broaden access to justice and service to the 
public; promote competence, professionalism, and civility; improve 
court facilities and technology; and build trust and confidence. We 
appreciate the support that this Subcommittee has given us that makes 
possible the achievement of these goals for our community.
    The Courts are committed to fiscal prudence and sound financial 
management. We are undergoing significant changes to meet the 
challenges of new technologies and are working to ensure that the 
courts of this jurisdiction have a sound infrastructure. Although we 
have requested funds for several important operating initiatives, the 
critical focus of our fiscal year 2006 budget request is our 
infrastructure.
    To support the Courts' mission and goals in fiscal year 2006, the 
Courts are requesting $342,734,000 for Court operations and capital 
improvements. Of this amount, $10,270,000 is requested for the Court of 
Appeals; $89,088,000 is requested for the Superior Court; $50,502,000 
is requested for the Court System; and $192,874,000 is requested for 
capital improvements for courthouse facilities. In addition, the Courts 
request $54,000,000 for the Defender Services account.
    The demands on the D.C. Courts require additional resources in 
fiscal year 2006. To build on past accomplishments and to support 
essential services to the public in the Nation's Capital, investment in 
infrastructure, and security are essential priorities. Only by 
investing in these areas will the Courts be in a position to ensure 
that our facilities are in a safe and healthy condition and reasonably 
up-to-date and that the type of security necessary to protect our 
citizens and our institution is in place. Focus on these capital areas 
is particularly critical now to meet these needs and to ensure that the 
quality of justice is not compromised.

                          RECENT ACHIEVEMENTS

    As the Courts approach the eighth year of direct federal funding in 
fiscal year 2006, we are continuing to build on past reforms that have 
enhanced our services to the community and demonstrated our commitment 
to fiscal responsibility. We are particularly proud of the Courts' 
progress with a number of recent achievements that include the 
following:
  --Commencement of construction on the Restoration of the Old 
        Courthouse, a building of historic and architectural 
        significance that is critical to meeting the long term space 
        needs of the Courts by freeing space in the Moultrie Building 
        for the final phase of the implementation of the Family Court, 
        following approval of design plans by the National Capital 
        Planning Commission, Commission of Fine Arts and Historic 
        Preservation Board;
  --Revision, as requested by the National Capital Planning Commission, 
        of a draft Master Plan for Judiciary Square, an urban design 
        and renewal plan for revitalization of this historic area that 
        dates to the original L'Enfant Plan for the Nation's Capital;
  --Further implementation of the Family Court Act, including: opening 
        the new Family Court space on the JM level in fiscal year 2004, 
        which consolidates the public face of the Family Court and 
        houses the new Central Intake Center to provide one-stop 
        services to Family Court customers; implementation of the one 
        family-one judge principle; creation of attorney panels for 
        neglect and juvenile cases and development of attorney practice 
        standards; establishment of a Family Treatment Court; piloting 
        a Self-Help Center with assistance from the bar; hiring nine 
        additional magistrate judges; investing three new Family Court 
        Judges; opening the Mayor's Services Liaison Center in the 
        courthouse; and transferring all required children's cases to 
        Family Court judges;
  --Implementation of a five-year strategic plan, ``Committed to 
        Justice in the Nation's Capital,'' as Court divisions prepared 
        Management Action Plans to align their activities and 
        objectives with the Strategic Plan, the product of nine months 
        of extensive input from stakeholders, detailed analysis of 
        community trends, and significant work by the Strategic 
        Planning Leadership Council;
  --Implementation of the Courts' new case management system, IJIS 
        (Integrated Justice Information System) in Family Court, Wave 1 
        in August 2003, Wave 2 in December 2003, and in the new Intake 
        Center in August 2004; in the Probate Division in May 2004; and 
        in the Small Claims and Landlord and Tenant Branches of the 
        Civil Division in December 2004 and February 2005, 
        respectively;
  --Launching of the Courts' website, designed to enhance public access 
        by providing information on operations and procedures, answers 
        to frequently asked questions, and documents that can be 
        printed out and filed with the court;
  --Continuing sound fiscal management, including an ``unqualified'' 
        opinion for the fourth year in a row on the Courts' annual 
        independent financial audit conducted in accordance with OMB 
        Circular No. A-133 (Audits of States, Local Governments, and 
        Non-Profit Organizations);
  --Implementation by the Court of Appeals of a comprehensive revision 
        of its rules of practice, the first such revision since the 
        mid-1980's;
  --Implementation of the Landlord Tenant Resource Center to provide 
        free legal information to unrepresented landlords and tenants 
        with residential housing disputes and to provide assistance 
        with referrals to legal and social service providers;
  --Promulgation of draft Probate attorney practice standards, creation 
        of the Probate Review Task Force, and greater oversight of 
        Probate attorneys and fiduciaries to enhance service to 
        incapacitated adults and other parties in Probate cases;
  --Reengineering of the Appeals Coordinator's Office to facilitate 
        appellate case filings by providing one-stop services in a 
        central point of filing for all appellate cases, regardless of 
        the division in which the Superior Court proceeding took place; 
        and
  --Renovation of specialized and more efficient space for the Landlord 
        Tenant and Small Claims courts, juvenile probation (the Social 
        Services Division), and the Crime Victims Compensation Program, 
        as the Courts' Master Plan for Facilities is implemented.

           CRITICAL FISCAL YEAR 2006 PRIORITY--INFRASTRUCTURE

    The District of Columbia Courts serve approximately 10,000 
courthouse visitors each day, process more than 200,000 cases each 
year, and employ a staff of 1,200 who directly serve the public, 
process the cases, and provide administrative support. The District of 
Columbia Courts are among the busiest and most productive court systems 
in the United States\1\. For example, published report indicate that 
the Superior Court of the District of Columbia has the seventh highest 
number of cases filed per judge, and the highest number of civil and 
criminal case filings per capita of all state courts in the nation, and 
our Court of Appeals has the second highest number of appeals filed per 
capita among all states and the highest among those with a similar 
court structure.
---------------------------------------------------------------------------
    \1\ See Examining the Work of State Courts 2003: A National 
Perspective from the Court Statistics Project, by B. Ostrom, N. Kauder, 
& R. LaFountain (National Center for State Courts 2004).
---------------------------------------------------------------------------
    The Courts' capital funding requirements are significant because 
they include funding for projects critical to maintaining, preserving, 
and building in a timely manner safe and functional courthouse 
facilities essential to meeting the heavy demands of the administration 
of justice in our Nation's Capital. To effectively meet these demands, 
the Courts' facilities must be both functional and emblematic of their 
public significance and character. The 2006 Capital Budget seeks to 
address these issues in a comprehensive manner.
    Facilities that provide adequate and efficiently designed space 
enhance the administration of justice, simplify public interaction with 
courts, and improve access to justice for all. In contrast, facilities 
with inadequate space for employees to perform their work, with 
evidence of long-deferred maintenance and repair, and with inefficient 
layouts can detract from the public perception of a court and impair 
its ability to function in the community. This negative perception 
impacts public trust and confidence in courts, a nationally recognized 
critical requirement for the effective administration of justice. The 
National Center for State Courts succinctly states the relationship 
between courts and their facilities:
  --Court facilities should not only be efficient and comfortable, but 
        should also reflect the independence, dignity, and importance 
        of our judicial system . . . It is difficult for our citizens 
        to have respect for the courts and the law, and for those who 
        work in the court, if the community houses the court in 
        facilities that detract from its stature.\2\
---------------------------------------------------------------------------
    \2\ Don Hardenbergh with Robert Tobin, Sr. and Chang-Ming Yeh, The 
Courthouse: A Planning and Design Guide for Court Facilities, National 
Center for State Courts, 1991, p. xiii.
---------------------------------------------------------------------------
    The D.C. Courts presently maintain 1.1 million gross square feet of 
space in Judiciary Square. The age of the Courts' buildings range from 
nearly 200 to 25 years. Many years of deferred maintenance forced by 
limited financial resources has left these buildings in a state that 
may in fact be perceived to detract from the stature of the Courts.
    The Courts' fiscal year 2006 budget request seeks resources to meet 
health and safety building codes and to provide safe, sanitary, and 
healthful facilities to the public in the courthouse. For example, 
adequate ventilation must be provided in the courthouse buildings. 
Electrical systems must be upgraded, both to meet modern office needs 
and to limit risk of fire. Fire and security recommendations from the 
U.S. Marshals Service must be implemented. Safety hazards posed by 
disintegrating flooring materials must be remedied.
    The halls of justice in the District of Columbia must be well 
maintained, efficient, and adequately sized to inspire the confidence 
of the members of the public who enter our buildings. The Courts' 
facilities plans reflected in the fiscal year 2006 budget request will, 
over the next ten years, meet the well-documented space needs of the 
Courts and return the buildings to a condition that reflects the 
dignity of the Courts and inspires trust in the justice system of the 
Nation's Capital.
    The Courts' facilities plans will also enhance the efficient 
administration of justice and improve public access to justice in this 
jurisdiction by co-locating related functions. The restoration of the 
Old Courthouse for the Court of Appeals, for example, will provide the 
public with a single location for services that are currently located 
on different floors and in different buildings from most Court of 
Appeals offices. Offices related to the Family Court will be 
consolidated through the planned addition to the Moultrie Courthouse. 
More efficient location of these offices will not only facilitate 
public access to the Courts, but will also enhance the efficiency of 
staff operations.
    In addition, basic mechanical systems impact the administration of 
justice. A broken air conditioning system, for example, can force 
suspension of a trial when courtroom temperatures rise to unbearable 
levels.

                FACILITIES IN THE COURTS' STRATEGIC PLAN

    The capital projects included in this request are an integral part 
of the Courts' Strategic Plan, completed in fiscal 2003. The Strategic 
Plan of the D.C. Courts, entitled Committed to Justice in the Nation's 
Capital, articulates the mission, vision, and values of the Courts in 
light of current initiatives, recent trends, and future challenges. It 
addresses issues such as implementation of a Family Court, increasing 
cultural diversity, economic disparity, complex social problems of 
court-involved individuals, the increasing presence of litigants 
without legal representation, rapidly evolving technology, the 
competitive funding environment, emphasis of public accountability, 
competition for skilled personnel, and increased security risks.
    Improved facilities were a need identified as a high priority among 
all constituency groups surveyed by the Courts as the Strategic Plan 
was developed. Employees, judges, and attorneys were asked to identify 
the most important issues the Courts must address in the coming years, 
and they all ranked ``enhance court facilities'' among the highest 
priorities. In addition, approximately half of judges and 65 percent of 
employees reported inadequate light, heat, air conditioning, and 
ventilation in their workspaces.
    ``Improving Court Facilities and Technology'' is the Plan's 
Strategic Issue 4. The Strategic Plan states--

    ``The effective administration of justice requires an appropriate 
physical and technical environment. Court personnel and the public 
deserve facilities that are safe, comfortable, secure, and functional, 
and that meet the needs of those who use them. Technology must support 
the achievement of the Courts' mission.''

                      THE D.C. COURTS' FACILITIES

    In preparing the fiscal year 2006 capital budget request, the 
Courts carefully assessed the capital requirements essential to 
performing our statutory and constitutionally mandated functions. The 
Courts' request for capital funding is particularly critical in fiscal 
year 2006 because of the need: (1) to address essential public health 
and safety conditions in our busy court buildings, including our main 
building to which some 10,000 people come each day; (2) to meet the 
courts' space requirements for conducting their business, which 
includes our new Family Court, recently established by Congress; and 
(3) to avoid interruption of ongoing projects as that typically results 
in substantially increased costs.\3\ Significantly increased space 
needs for court operations and inadequate capital funding in prior 
years that necessitated maintenance deferral compel the Courts' 
significant capital request for fiscal year 2006.
---------------------------------------------------------------------------
    \3\ For example, in the last decade, the estimated cost for 
restoring the Old Courthouse has more than tripled.
---------------------------------------------------------------------------
    The Courts are responsible for four buildings in the square: the 
Old Courthouse at 451 Indiana Avenue, the Moultrie Courthouse at 500 
Indiana Avenue, N.W., and Buildings A and B, which are located between 
4th and 5th Streets and E and F Streets, N.W. In addition, when the 
District government's payroll office vacates Building C, the old 
Juvenile Court, it will be returned to the Courts' inventory. Recent 
studies by the General Services Administration (GSA) have documented 
both the D.C. Courts' severe space shortage \4\ and the inadequacy of 
the physical condition of the Courts' facilities.\5\
---------------------------------------------------------------------------
    \4\ Master Plan for D.C. Courts Facilities, 2002.
    \5\ Building Evaluation Report, 2001.
---------------------------------------------------------------------------
    The recently completed Master Plan for D.C. Courts Facilities, 
conducted by experts in architecture and space planning, secured 
through the General Services Administration (GSA) defined a present 
shortfall of 48,000 square feet of space, with a shortfall of 134,000 
square feet projected in the next decade. The experts proposed to meet 
the Courts' space needs through three mechanisms: (1) renovation of the 
Old Courthouse for use by this jurisdiction's court of last resort, the 
District of Columbia Court of Appeals, which will free critically 
needed space in the Moultrie Courthouse for trial court operations; (2) 
construction of an addition to the Moultrie Courthouse, a major portion 
of which will be developed as a separately accessible Family Court 
facility; and (3) the future occupation of Building C, adjacent to the 
Old Courthouse.
    The restoration of the Old Courthouse for use by the District of 
Columbia Court of Appeals is pivotal to meeting the space needs of the 
court system. We are very pleased that Congress financed the first 
phase of construction last year and expressed its support for funding 
the balance in fiscal 2006. We are also very pleased that the President 
has recognized the importance of this project by supporting it in his 
budget recommendation for fiscal 2006.
    Investment in the restoration of the Old Courthouse not only will 
improve efficiencies by co-locating the offices that support the Court 
of Appeals, but also will provide 37,000 square feet of space 
critically needed for Superior Court and Family Court functions in the 
Moultrie Courthouse. The Moultrie Courthouse is uniquely designed to 
meet the needs of a busy trial court. It has three separate and secure 
circulation systems--for judges, the public, and the large number of 
prisoners present in the courthouse each day. Built in 1978 for 44 
trial judges, today it is strained beyond capacity to accommodate 62 
trial judges and 24 magistrate judges in the trial court and 9 
appellate judges, as well as senior judges and support staff for the 
two courts. Essential criminal justice and social service agencies also 
occupy office space in the Moultrie Courthouse. The Courts have clearly 
outgrown the space available in the Moultrie Courthouse. The space is 
inadequate for this high volume court system to serve the public in the 
heavily populated metropolitan area in and around our Nation's Capital. 
The Courts require well-planned and adequate space to ensure efficient 
operations in a safe and healthy environment.

                       HISTORIC JUDICIARY SQUARE

    The historical and architectural significance of Judiciary Square 
lend dignity to the important business conducted by the Courts and, at 
the same time, complicate somewhat efforts to upgrade or alter the 
structures within the square. As one of the original and remaining 
historic green spaces identified in Pierre L'Enfant's plan for the 
capital of a new nation, Judiciary Square is of keen interest to the 
Nation's Capital.
    The Old Courthouse, the centerpiece of the historic Judiciary 
Square, built from 1821 to 1881, is one of the oldest public buildings 
in the District of Columbia. Inside the Old Courthouse, Daniel Webster 
and Francis Scott Key practiced law and John Surratt was tried for his 
part in the assassination of President Abraham Lincoln. The 
architectural and historical significance of the Old Courthouse led to 
its listing on the National Register of Historic Places and its 
designation as an official project of Save America's Treasures. The 
unique character of the building, together with its compact size, makes 
it ideal for occupancy by the highest court of the District of 
Columbia. At the same time, the structure requires extensive work to 
meet health and safety building codes and to readapt it for modern use 
as a courthouse. Since it has been vacated, with the support of 
Congress, the Courts have been able to take steps to prevent its 
further deterioration. The restoration of the Old Courthouse for use as 
a functioning court building will not only provide much needed space 
for the Courts, but it will also impart new life to one of the most 
significant historic buildings and precincts in Washington, D.C. It 
will meet the needs of the Courts and benefit the community through an 
approach that strengthens a public institution, restores a historic 
landmark, and stimulates neighborhood economic activity.
    Buildings A, B, and C, dating from the 1930's, are situated 
symmetrically along the view corridor comprised of the National 
Building Museum, the Old Courthouse, and John Marshall Park and form 
part of the historic, formal composition of Judiciary Square. These 
buildings have been used primarily as office space in recent years, 
with a number of courtrooms in operation in Building A. The D.C. Courts 
have begun implementation of the Master Plan, relocating the Superior 
Court's two highest volume courtrooms, Small Claims and Landlord and 
Tenant, into Building B. This move vacated space in the Moultrie 
Building that was immediately renovated for the Family Court, 
permitting the construction of three new courtrooms, three new hearing 
rooms, a centralized case intake facility, a family-friendly waiting 
area and District government liaison offices for Family Court matters. 
The Interim Space Plan for the Family Court was completed and opened 
for business in July 2004.
    The H. Carl Moultrie I Courthouse, built in the 1970's, although 
not historic, is also located along the view corridor and reinforces 
the symmetry of Judiciary Square through its similar form and material 
to the municipal building located across the John Marshall Plaza. 
Currently the Moultrie Courthouse provides space for most Court of 
Appeals, Superior Court, and Family Court operations and clerk's 
offices, as previously described.

                      JUDICIARY SQUARE MASTER PLAN

    The National Capital Planning Commission (NCPC) required that the 
D.C. Courts develop a Master Plan for Judiciary Square--essentially an 
urban design plan--before any construction can be commenced in the 
area. The D.C. Courts have worked with all stakeholders on the Plan, 
including the United States Court of Appeals for the Armed Forces, the 
National Law Enforcement Officers Memorial Fund (Memorial Fund), the 
Newseum, and the Metropolitan Police Department. A draft Judiciary 
Square Master Plan was submitted to the NCPC in June 2003 and 
subsequently approved in August 2003. Review of the final plan is 
anticipated in May 2005.
    The Judiciary Square Master Plan integrates the facilities 
development program of the Courts into a rapidly changing and publicly 
oriented area of the District. The Plan resolves important technical 
issues related to access, service, circulation, and security while re-
establishing the importance of this historic setting in the ``City of 
Washington.'' It provides a comprehensive framework for project 
implementation and lays the groundwork for the regulatory approval 
process with the National Capital Planning Commission, the U.S. 
Commission of Fine Arts, the District of Columbia Office of Historic 
Preservation, the District of Columbia Office of Planning, and the 
District of Columbia Department of Transportation, among others.
    The Judiciary Square Master Plan recommends (1) re-introduction of 
landscaped green space around court buildings and the construction of 
secure underground parking garages for the Courts, including the U.S. 
Court of Appeals for the Armed Forces, to house vehicles now parked in 
surface lots; (2) integration of a new service area, security features 
and landscape concept; and (3) coordination of the Courts' development 
with development of the National Law Enforcement Officers Museum by the 
Memorial Fund.
    The Judiciary Square Master Plan will ensure the preservation of 
one of the last green spaces in the District of Columbia awaiting 
revitalization, incorporating areas where the public can gather and 
relax, and creating a campus-like environment where citizens can feel 
safe and secure. The Judiciary Square Master Plan will be of great 
benefit to the city of Washington, D.C.

                       MASTER PLAN FOR FACILITIES

    The Courts have been working with GSA on a number of our capital 
projects since fiscal year 1999, when the Courts assumed responsibility 
for our capital budget from the District's Department of Public Works. 
In 1999, GSA produced a study for the renovation of the Old Courthouse 
to house the D.C. Court of Appeals. In 2001, GSA prepared Building 
Evaluation Reports that assessed the condition of the D.C. Courts' 
facilities, which have been adversely affected by maintenance deferrals 
necessitated by severely limited capital funds in prior years. These 
projects culminated in the development of the first Master Plan for 
D.C. Court Facilities, which delineates the Courts' space requirements 
and provides a blueprint for optimal space utilization, both in the 
near and long term.
    The Master Plan for D.C. Court Facilities, completed in December 
2002, incorporates significant research, analysis, and planning by 
experts in architecture, urban design and planning. During this study, 
GSA analyzed the Courts' current and future space requirements, 
particularly in light of the significantly increased space needs of the 
Family Court. The Master Plan examined such issues as alignment of 
court components to meet evolving operational needs and enhance 
efficiency; the impact of the D.C. Family Court Act of 2001 (Public Law 
Number 107-114); accommodation of space requirements through 2012; and 
planning to upgrade facilities, including, for example, security, 
telecommunications, and mechanical systems. The Plan identified a space 
shortfall for the Courts over the next decade of 134,000 occupiable 
square feet, and, as noted above, proposed to meet that need through 
renovation of the Old Courthouse for adaptive reuse by the D.C. Court 
of Appeals; construction of an addition to the Moultrie Courthouse; and 
reoccupation of Building C, adjacent to the Old Courthouse. In 
addition, the Plan determined that other court facilities must be 
modernized and upgraded to meet health and safety standards and to 
function with greater efficiency.

                    FAMILY COURT IN THE MASTER PLAN

Interim Family Court Space Plan
    The Master Plan incorporates an Interim Space Plan for the Family 
Court that provides the facilities necessary to fully implement the 
Family Court Act, as well as a long term plan that optimizes space and 
programmatic enhancements for the Family Court. The Interim Space Plan 
for Family Court was completed in the summer of 2004 and procedural 
changes have been implemented within the Family Court to meet the 
requirements of the Family Court Act. Recently completed components of 
the Plan are straightforward.
  --During fiscal year 2002, the Courts constructed and reconfigured 
        space in the Moultrie Courthouse to accommodate nine new Family 
        Court magistrate judges and their support staff. The Courts 
        also constructed four new hearing rooms in Building B for 
        Family Court magistrate judges hearing child abuse and neglect 
        cases, and renovated short-term space for the Mayor's Services 
        Liaison Office.
  --Two Superior Court operations formerly located on the JM level of 
        the Moultrie Courthouse, the Small Claims and Landlord Tenant 
        Branches of the Superior Court's Civil Division, were relocated 
        in November 2003 to Building B to free space for the Family 
        Court. Construction of space and system upgrades in Building B 
        were completed and these Courts have been fully operational in 
        their new location since December 2003.
  --Construction in JM Level of the Moultrie Courthouse for the Interim 
        Space Plan of the Family Court was completed in the summer of 
        2004, and progress has been made toward establishing a fully 
        consolidated Family Court. The project provides the Family 
        Court with three new courtrooms, three new hearing rooms, the 
        Mayor's Services Liaison Office, a Centralized Family Court 
        Case Filing and Intake Center, a family-friendly child waiting 
        area, and a new Family Court entrance from the John Marshall 
        Plaza into the Moultrie Courthouse. In addition, the corridors 
        and hallways along the courthouse's JM-level were redesigned to 
        create family-friendly seating and waiting areas.

Long Term Family Court Space Plan
    The long term plan for the Family Court includes expansion of the 
Moultrie Courthouse. Once complete, it will provide a state-of-the-art, 
family-friendly facility for Family Court operations, with its own 
identity and separate entrance, which will be a model for the nation. 
The plan envisions a safe facility that will be inviting and welcoming 
to families with children of all ages and that will incorporate a 
``one-stop'' concept by locating all related court units in one place 
and making it easier for families to access needed social services from 
D.C. government agencies. The interim Family Court plan is designed to 
transition smoothly into this long term plan and to maximize the 
efficient use of time and money.
    The Master Plan studied the cost and feasibility of expanding the 
Moultrie Courthouse in the Feasibility Study for the H. Carl Moultrie I 
Courthouse--May 2003. This approach has been developed with the 
overarching objectives of keeping the court system continually 
operating efficiently while carefully complying with the Family Court 
Act. Independent projects related to the Family Court Act include the 
renovation and expansion of the Old Courthouse to free space in the 
Moultrie Building, system upgrades and renovation of Buildings A & B, 
occupation and renovation of Building C, leasing of space for functions 
not directly related to the public and court proceedings, and 
renovation and expansion of the Moultrie Courthouse. These projects 
will shift operations currently located in existing Court facilities 
(1) to create ``swing space'' that permits the required construction to 
take place in an operating courthouse that receives 10,000 visitors 
daily and (2) to make contiguous office space available for all related 
Family Court activities.

                  CAPITAL FUNDING IN FISCAL YEAR 2006

    To permit the Courts to continue to meet the needs of the community 
and the demands confronting the District's judicial branch, adequate 
resources are essential. The most critical issue we face today is 
sufficient capital funding to address the Courts' severe space shortage 
and aging infrastructure. Only by investing in these areas will the 
Courts be in a position to ensure that the type of security necessary 
to protect our citizens and our institution is in place, and that our 
facilities are in a safe and healthy condition and reasonably up-to-
date.
    The first part of the Capital Budget request identifies projects to 
renovate, improve, and expand court facilities, as specified in the 
Master Plan for Facilities. The request is a comprehensive, five-year 
plan, with projects divided into phases to the extent practicable. In 
fiscal year 2006, $59.26 million is requested to complete the 
construction of the Old Courthouse renovation, which began in March 
2005. In addition, $21.4 million is requested for the Juvenile Holding 
area renovation, C Street Expansion, and Renovation and Reorganization 
parts of the Moultrie Courthouse Renovation and Expansion project in 
fiscal year 2006. For work to renovate Building C and for construction 
in Building A, $35.5 million is requested. To design and prepare signs 
to guide the public through the court complex, which will become 
increasingly important as court operations move out of the Moultrie 
Courthouse, $5 million is requested. For design work to implement 
campus perimeter security features around Judiciary Square Court 
buildings including installation of plinth walls, bollards, fencing, 
and security furnishings and the widening of sidewalks, $3.5 million is 
requested. To begin design work on a new East Underground Garage 
project, $3 million is requested.
    The second part of the Capital Budget request addresses the 
condition of the Courts' existing infrastructure, including projects 
necessary for the health and safety of the public in the courthouse and 
including the Integrated Justice Information System (IJIS). The Courts 
have expanded the scope of the Fire and Security Alarm Systems project 
to include installation of a sprinkler system for the entire Moultrie 
Courthouse. This is a significant health and safety infrastructure 
upgrade for which $15.6 million is requested in fiscal year 2006, as 
recommended by GSA and U.S. Marshals Service studies. For HVAC, 
Electrical, and Plumbing Upgrades to remediate lead-contaminated 
drinking fountains, provide adequate ventilation, and meet electrical 
load needs, among other things, $27 million is requested. To renovate 
dilapidated restrooms used by the public and court staff, $2.5 million 
is requested. In addition, $8.6 million is requested for, among other 
things, ADA accessibility, safety repairs, and refurbishment of run-
down areas in courtrooms and secure areas. To improve safety and ADA 
accessibility in public areas, to clean the exterior of the Courts' 
buildings, to replace doors and windows in historic Buildings A and B, 
to repair roofing and to make other general repairs, $10 million is 
requested. Finally, $1.51 million is requested for continued 
implementation of IJIS.
    The capital projects identified are critical to the Courts' ability 
to meet the current and future needs of the District of Columbia 
Courts. Approval of the requested capital funding in fiscal year 2006 
offers important advantages including: (1) addressing urgent public 
health and safety conditions in the Court's busy buildings; (2) 
allowing ongoing projects to continue without interruption, thereby 
avoiding increased costs occasioned by delays; (2) and meeting the 
Courts' critical space requirements, including our New Family Court.

                     STATUS OF KEY CAPITAL PROJECTS

Old Courthouse Restoration
    The D.C. Courts' numerous facilities renovation projects have 
converging critical scheduling paths. The Old Courthouse project is the 
first step in a series of interdependent moves that must progress in 
sequence to provide space and make way for the next step in the Courts' 
Master Plan for Facilities. Since the pre-design study for the 
restoration was completed in 1999, the Courts have, with the support of 
Congress and the President, taken steps to preserve the building, 
including making watertight the roof, and mothballing the building. 
Design of the Old Courthouse restoration began April 30, 2003 with the 
selection, from among nearly 30 bids in the General Services 
Administration procurement process, of Beyer Blinder Belle Architects 
and Planners LLP (BBB). BBB is a nationally renowned architectural and 
engineering firm whose historic preservation and renovation projects 
have included Grand Central Station, Ellis Island, and the U.S. 
Capitol.
    BBB first completed the design of the first phase of the 
restoration, the parking garage to be shared by the U.S. Court of 
Appeals for the Armed Forces, and its construction has begun.
    BBB has also completed the design of the Restoration of the Old 
Courthouse itself. The regulatory agency approval process is completed. 
The Commission of Fine Arts (CFA) gave final approval to the Old 
Courthouse design on July 15, 2004 and the National Capital Planning 
Commission (NCPC) approved the design of the Old Courthouse and the 
interim plaza on August 5, 2004. As requested by both agencies, the 
Courts continue to seek an agreement on a final design for the plaza 
with the National Law Enforcement Museum (NLEM), which is authorized to 
build an underground museum with aboveground entrance pavilions on part 
of the site. We believe that the key to an agreement is a neutral 
treatment that respects dignity of the Old Courthouse as well as the 
separation between law enforcement and courts of law that must 
necessarily exist in our system of government.
    We are very pleased that the President has supported the Courts' 
plans for the construction phase of the Old Courthouse restoration, 
including $51.5 million in his budget recommendations for the Courts.
Moultrie Courthouse Expansion
    The expansion of the Moultrie Courthouse is a key element in the 
long-term plan for Family Court. The expansion builds on the interim 
plan for the Family Court, completed last summer, that consolidates the 
public face of the Family Court through a centralized intake center and 
space for the Mayor's Services Liaison Office and provides a separate 
entrance as well as new courtrooms, hearing rooms, and a family-
friendly child waiting area. The expansion will complete the facilities 
enhancements for the Family Court providing, for example, additional 
space for child protection mediation, increased Child Care Center 
space, and safe and comfortable family waiting areas. It will also 
fully consolidate all administrative operations of the Family Court 
including relocation of juvenile probation (the Social Services 
Division of the Family Court) from Building B to the Moultrie 
Courthouse. A portion of the addition will meet critical space needs 
for other Superior Court operations.

                    COMPLETE BUDGET REQUEST SUMMARY

    To build on past accomplishments and to serve the public in the 
District of Columbia, the Courts require additional resources in fiscal 
year 2006 to invest in capital infrastructure and technology; security; 
strategic management; self-representation services; enhanced and more 
timely customer service; financial, materiel, and facilities 
management; and human resources. Without additional capital resources, 
the courthouse and the District's historic buildings will continue to 
deteriorate; without remediation, the Courts' information technology 
will fail; and without targeted investments in these critical areas, 
the quality of justice in the Nation's Capital will be compromised. The 
fiscal year 2006 request addresses these requirements by:
  --Investing in Infrastructure.--To ensure the health, safety, and 
        quality of court facilities and to address court space needs, 
        the fiscal year 2006 capital request totals $192,874,000. The 
        fiscal year 2006 capital request incorporates the significant 
        research and planning comprising the D.C. Courts' first-ever 
        Master Plan for Facilities, completed in December 2002. In the 
        master plan process, the General Services Administration (GSA) 
        analyzed the Courts' current and future space requirements, 
        particularly in light of the significantly increased space 
        needs of the Family Court, and established a 134,000 occupiable 
        square feet shortfall over the next ten years. The Master Plan 
        recommended a three-part approach to meeting the Courts' space 
        needs: (1) restoration of the Old Courthouse at 451 Indiana 
        Avenue to house the D.C. Court of Appeals and to make 
        additional space available in the Moultrie Courthouse to 
        accommodate the Family Court and other Superior Court 
        operations; (2) an addition to the Moultrie Courthouse to 
        accommodate fully consolidated and state-of-the art Family 
        Court facilities; and (3) reoccupation of Court Building C, 
        adjacent to the Old Courthouse and currently being vacated by 
        the District government.
  --Old Courthouse.--Included in the Courts' capital request is 
        $59,260,000 \6\ to complete the restoration of the Old 
        Courthouse. Built from 1820 through 1881, the Old Courthouse is 
        an architectural jewel that has been the site of many historic 
        events. The structure is uninhabitable in its present condition 
        and requires extensive work to ensure that it meets health and 
        safety building codes. Design of the project began in June 
        2003, and construction of the accompanying garage is scheduled 
        to begin in February 2005. In the fiscal year 2005 
        appropriation, Congress financed the first phase of the project 
        and expressed its support for the restoration and its 
        commitment to fund it in fiscal year 2006. The work begun in 
        fiscal year 2005 must proceed without delay in fiscal year 2006 
        to avoid disruption of the work, increased costs, and the risk 
        of costly partial restorations in a building that cannot be 
        used until completed. Restoring this historic landmark to meet 
        the urgent space needs of the Courts and preserving it for 
        future generations are critical priorities for the District of 
        Columbia Courts.
---------------------------------------------------------------------------
    \6\ Please note that the Courts' request to the President for this 
project was $51,500,000, which was based on the average of the House 
and Senate versions of the fiscal year 2005 appropriations bill. The 
enacted fiscal year 2005 figure was lower than this average, 
necessitating an increased request for this project.
---------------------------------------------------------------------------
  --Moultrie Courthouse.--Also included in the capital budget request 
        is $21,400,000 to continue work on the Moultrie Courthouse, as 
        delineated in the Master Plan. This amount includes $9,000,000 
        for the design \7\ of the C Street Expansion, an addition 
        planned for the south side of the Moultrie Courthouse. The 
        addition will complete the facilities enhancements for the 
        Family Court, providing, for example, a new Family Court 
        entrance, child protection mediation space, increased Child 
        Care Center space, safe and comfortable family waiting areas, 
        and consolidation of all related Family Court offices in one 
        place (to include the Social Services Division, currently 
        housed in Court Building B, which provides juvenile probation 
        supervision). Furthermore, a portion of the addition will meet 
        critical space needs for other Superior Court operations. This 
        request also includes (1) $5,000,000 to renovate space in the 
        Moultrie Building for the juvenile holding area, which will 
        free space for Family Court offices; (2) $6,000,000 for the 
        second phase of the renovation and reorganization of the 
        Moultrie Courthouse, to make optimal use of existing space as 
        envisioned in the Master Plan; and (3) $1,400,000 for 
        preconstruction work on the Indiana Avenue expansion of the 
        Moultrie Courthouse primarily to provide a security screening 
        lobby for the public to await entry to the courthouse sheltered 
        form the weather.
---------------------------------------------------------------------------
    \7\ Funds provided for this project in fiscal year 2005 had to be 
reprogrammed to another construction project.
---------------------------------------------------------------------------
  --Maintaining Infrastructure.--The capital budget also includes 
        $48,100,000 to maintain the Courts' existing infrastructure, 
        preserving the health and safety of courthouse facilities for 
        the public and the integrity of historic buildings for the 
        community. The Courts facilities encompass more than 1.1 
        million gross square feet of space. Over the course of many 
        years, limited resources have forced the Courts to defer 
        routine maintenance of these facilities, leading to increased 
        risk of system failures that threaten public health and safety 
        in the Courthouse. For example, the $27,000,000 requested for 
        HVAC, Electrical and Plumbing Upgrades will be used to replace 
        public drinking fountains that have been disconnected due to 
        lead contamination and 21 failing air handling units that 
        ventilate the Moultrie Courthouse. Historic court buildings on 
        Judiciary Square, such as Buildings A and B, were funded by 
        Congress and constructed in the 1930's and require ongoing 
        maintenance, such as the replacement of doors and windows. The 
        cost for such maintenance is included in the fiscal year 2006 
        General Repair Projects request.
  --Homeland Security.--To protect the 10,000 daily visitors to the 
        courthouse and meet the increased security threat post 
        September 11, 2001, the Courts' capital budget request includes 
        $19,100,000, for security enhancements. This figure includes 
        $3,500,000 for campus perimeter security to protect the 
        occupants of the high-profile court buildings in Judiciary 
        Square and $15,600,000 to finance fire and security 
        improvements recommended by both a U.S. Marshal Service 
        Physical Security Survey and a GSA Preliminary Engineering 
        Report (including design, construction, and installation of a 
        new fire and security system and building sprinklers as well as 
        additional security cameras, duress alarms and upgrades).
  --Investing in Information Technology (IT).--To achieve the Courts' 
        strategic goal of improving technology, including providing a 
        case management system with accurate, reliable data across 
        every operating area available to the judiciary, the District's 
        child welfare and criminal justice communities and the public, 
        the Courts request $4,744,000 in fiscal year 2006. This amount 
        includes $3,230,000 in the operating budget for a new case 
        management system in the Court of Appeals, IT infrastructure 
        enhancement, IT business integration, and systems to enhance 
        service to District citizens serving as jurors. In addition, 
        the Courts' capital budget request includes $1,514,000 to 
        finance the final phase of IJIS, which the Court launched in 
        fiscal year 1999. As noted above, implementation of IJIS is 
        well underway, with the full Family Court module operational in 
        December 2003 and the Probate module operational in May 2004.
  --Strategic Planning and Management.--To support implementation of 
        long-range strategic planning and court performance measurement 
        and reporting, $635,000 is requested for an Office of Strategic 
        Management. This request would build on the Courts current 
        strategic planning effort by coordinating enterprise-wide 
        projects and enhancing the Courts' performance measurement 
        capability. The request would finance performance management 
        software, training, and staff to establish and analyze court 
        performance, perform strategic planning, and coordinate and 
        prioritize competing projects and activities.
  --Serving the Self-Represented.--To enhance equal access to justice 
        for the more than 50,000 litigants without lawyers who come to 
        the courthouse each year, especially in the Family Court, Civil 
        Division, and Court of Appeals, $1,895,000 and 10 FTEs are 
        requested for staff and facilities for a Self-Representation 
        Service Center. This initiative would utilize best practices 
        and build upon the very limited pro bono services currently 
        available in the courthouse. This initiative is particularly 
        vital to the public we serve, as a recent study found that 
        local agencies providing legal services to the poor turn away 
        more than 50 percent of persons who seek assistance. These 
        individuals require assistance when they arrive in the 
        courthouse with no choice but to represent themselves.
  --Enhanced and More Timely Public Service.--To enhance and provide 
        more timely services to the public, the Courts' fiscal year 
        2006 request includes $1,833,000 and 11 FTEs. Included in the 
        total is $780,000 for a pilot program to enhance the record of 
        court proceedings and timely transcript production; $525,000 
        and 8 FTEs to provide services for incapacitated adults and 
        other customers in the Probate Division; $259,000 and 2 FTEs to 
        expand mediation, interpreting and juror services; and $269,000 
        and 1 FTE to undertake community outreach, to increase 
        monitoring of juveniles on probation and to enhance the 
        reference materials in the library.
  --Financial, Materiel, and Facilities Management.--To enhance 
        financial, materiel, and facilities management, $2,098,000 and 
        15 FTEs are requested. Included in the total is $636,000 and 8 
        FTEs to build upon financial and program management 
        improvements, including creation of an independent internal 
        audit function; $722,000 and 1 FTE for materiel management, 
        including warehouse space, equipment, and staff; and $740,000 
        and 6 FTEs to enhance facilities management and administrative 
        support, including building engineers and equipment leases.
  --Investing in Human Resources.--To help the Courts attract, develop, 
        and retain highly qualified employees and address the risks of 
        high retirement eligibility, $1,852,000 is requested, including 
        $800,000 for succession planning and tuition assistance and 
        $109,000 and one FTE to enhance training for court personnel. 
        Currently, 24 percent of the Courts' non-judicial employees, of 
        whom 17 percent are in top management positions, are eligible 
        to retire in the next five years, representing a potential loss 
        of experience and talent that the Courts must plan now to 
        address.
  --Built-In Increases.--The fiscal year 2006 request also includes 
        $3,417,000 for a COLA increase, $676,000 for non-pay 
        inflationary cost increases, and $568,000 for within-grade 
        increases. The Courts' request includes within-grade increases 
        for employees because unlike typical agencies, which may fund 
        these increases through cost savings realized during normal 
        turnover, the Courts have a very low turnover rate (7 percent 
        in fiscal year 2004).
  --Strengthening Defender Services.--In recent years, the Courts have 
        devoted particular attention to improving the financial 
        management and reforming the administration of the Defender 
        Services programs. For example, the Courts have significantly 
        revised the Criminal Justice Act (CJA) Plan for representation 
        of indigent defendants to ensure that highly qualified 
        attorneys represent indigent defendants. In addition, the 
        Courts have developed a new Counsel for Child Abuse and Neglect 
        (CCAN) Plan for Family Court cases, adopting Attorney Practice 
        Standards and requiring attorney training and screening to 
        ensure that well-qualified attorneys are appointed in these 
        cases. The Guardianship Program has also been revised, imposing 
        a training requirement on attorneys participating in the 
        program.
      In the Defender Services account, the Courts' fiscal year 2006 
        budget request represents an increase of $15,500,000 over the 
        fiscal year 2005 enacted level of $38,500,000. Of the total 
        increase, $6,500,000 is requested to cover projected increases 
        in the base program due to higher criminal caseloads, increases 
        in a contract guardian ad litem program, and program management 
        efficiencies that have resulted in accelerated attorney 
        payments. The remaining $9 million reflects a compensation 
        adjustment for attorneys from $65 to $90 per hour, to keep pace 
        with the rate paid court-appointed attorneys at the Federal 
        courthouse across the street from the D.C. Courts.

                               CONCLUSION

    Mister Chairman, Senator Landrieu, Subcommittee members, the 
District of Columbia Courts have long enjoyed a national reputation for 
excellence. We are proud of the Courts' record of administering justice 
in a fair, accessible, and cost-efficient manner. Adequate funding for 
the Courts' fiscal year 2006 priorities is critical to our success, 
both in the next year and as we implement plans to continue to provide 
high quality service to the community in the future. We appreciate the 
President's level of support for the Courts' funding needs in 2006 and 
the support we have received from the Congress. We look forward to 
working with you throughout the appropriations process, and we thank 
you for this opportunity to discuss the fiscal year 2006 budget request 
of the Courts.

    Senator Brownback. Thank you, Judge Wagner. How many years 
have you served the court system? You were telling me the other 
day.
    Judge Wagner. In June, it will be 28 years. I've been on 
the Court of Appeals since 1990 and served in the trial court 
prior to that time. It's been a wonderful opportunity. It's 
been a privilege to serve. It has made me both proud and 
optimistic about our future.
    Senator Brownback. I remember you saying the number of 
years, and I was very impressed. And that's fabulous. Thanks 
for your years of great service that you've provided, and 
continue to provide, as well, in the courts.
    Judge King, who has a distinguished set of years, too. How 
many years, as well?
    Judge King. I'm 20, now.
    Senator Brownback. Twenty. Oh, a mere child.

STATEMENT OF HON. RUFUS KING, III, CHIEF JUDGE, 
            SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Judge King. Mr. Chairman, Senator Landrieu, subcommittee 
members, thank you for this opportunity to discuss the D.C. 
Courts' fiscal year 2006 budget request.
    I'm Rufus King, III, and I'm appearing in my capacity as 
Chief Judge of the Superior Court of the District of Columbia.
    As you know, the Superior Court is the trial court for the 
District of Columbia. It is a unified court of general 
jurisdiction, hearing matters brought to court under all areas 
of District of Columbia law.
    Chief Judge Wagner's testimony on behalf of the Joint 
Committee on Judicial Administration details the courts' 
complete budget request. So, my testimony will highlight the 
Family Court, the integrated justice information system (IJIS), 
and some of our problem-solving courts as initiatives of 
special importance to the Superior Court.
    The District of Columbia Family Court Act of 2001 changed 
the way the court serves children and families in the District. 
The act authorized additional judges, and this subcommittee 
provided additional resources to enable the court to meet the 
challenges presented by those special cases and as authorized 
under the act.
    The Family Court, ably led by presiding Judge Lee 
Satterfield, his deputy, Judge Anita Josey-Herring, and 
division director Dianne King, has largely implemented the 
Family Court Act. Through close collaboration with D.C. 
executive branch agencies in the child welfare system, the 
Family Court is making great strides in improving the lives of 
children and families in the District.
    Recently, we have increased the compliance with the 
Adoptions and Safe Families Act. In 2003, the compliance rate 
was 93 percent, as opposed to 51 percent in the year 2000, when 
we started, just before the act was passed.
    The court has implemented the Benchmark Permanency Hearing 
Pilot Program for older youth in foster care to help them plan 
for the time when they become independent. Children between the 
ages of 15 and 21 years make up 35 percent of the children 
under court supervision in our neglect system.
    In July, we opened the new Family Court space in the 
Moultrie Courthouse. This space consolidates the public face of 
the Family Court, and, as you saw yesterday, Mr. Chairman, 
provides a family friendly environment with comfortable waiting 
areas. I am especially proud to be able to report that all of 
the construction for the Family Court has been completed in-
budget and on time.
    We have established a truancy task force to address absence 
from school as one of the early warning signs of troubled 
families and children, as well as a predictor of future crime.
    Turning to the integrated justice information system, the 
courts' unified information technology initiative was put in 
place to consolidate 20 different databases and provide 
comprehensive information to judicial officers. It was 
implemented first in the Family Court. To date, it has been 
implemented in the Family Court, the Probate Division, and the 
small claims and landlord/tenant branches of the civil 
division. The remainder of the civil division and the criminal 
division are scheduled to come online later this year, which 
will complete its implementation in Superior Court.
    When the system is completed, judges and staff will be able 
to easily cross-reference cases in any division of the court so 
that a judge in a neglect case will be able to keep track of 
other cases involving that family in criminal court or 
landlord/tenant court, as well as in other family cases.
    Critical to the principle of ``one family, one judge,'' the 
IJIS system also enhances efficiency of operations and provides 
better information to judges and the public. It also supports 
our ability to communicate with other child welfare agencies, 
as required in the Family Court Act.
    In response to the needs in a different community we serve, 
the Superior Court has implemented several programs known as 
``problem-solving courts.'' These courts are gaining prominence 
nationally as communities seek to cope with lower-level or 
quality-of-life crimes. The expectation is that by addressing 
the causes underlying minor crimes, such as substance abuse and 
mental health issues, early, the court helps slow down the rate 
of recidivism and graduation to more serious crime. These 
courts combine restorative justice under which the offender 
repays the community in some way--cleaning up the graffiti, 
doing some form of community service, for example--and 
therapeutic justice, in which an effort is made, from the very 
outset of a case, to connect the offender with social services 
or other services that might be needed in order to address 
underlying problems.
    The Superior Court has several such problem-solving courts. 
The D.C. and traffic community court serves all of those cases. 
The east of the river community court serves a variety of minor 
criminal offenses. An adult drug court and juvenile drug court 
serve those particular needs. And a family treatment court 
serves the needs of persons afflicted with drug abuse in a 
family setting, prior to the breakup of the family, rather than 
following it.
    The east of the river community court, to take one, just 
one, was implemented for all cases from wards 6 and 7, as a 
pilot project in September 2002. This community faces 
significant inner-city challenges, including high rates of 
poverty, crime, and disorder. And these rates are actually 
higher there than in many parts of the city. Most defendants 
appearing in this court have substance abuse problems and lack 
job skills and education. The court seeks to ensure that those 
who have harmed the community through criminal activities 
perform community service, and the judge seeks to implement and 
coordinate the implementation of services designed to 
discourage the defendants from returning to court.
    Mr. Chairman, the D.C. Courts are proud of our efforts to 
serve children and families and to implement technology that 
enables them to enhance our service to the public and to 
respond directly to community needs. We expect to continue 
these programs in the future, with your support.

                           PREPARED STATEMENT

    Thank you for this opportunity to address the subcommittee. 
I'd be pleased to answer any questions you may have.
    Senator Brownback. Thank you, Judge King.
    [The statement follows:]

                Prepared Statement of Rufus G. King, III

    Mister Chairman, Senator Landrieu, Subcommittee members, thank you 
for this opportunity to discuss the D.C. Courts' fiscal year 2006 
budget request. I am Rufus King and I am appearing in my capacity as 
the Chief Judge of the Superior Court of the District of Columbia.
    As you know, the Superior Court is the trial court for the District 
of Columbia. It is a unified court of general jurisdiction, hearing 
matters brought to court under all areas of District of Columbia law.
    Chief Judge Wagner's testimony on behalf of the Joint Committee on 
Judicial Administration details the Courts' complete budget request, so 
my testimony will highlight specific operational areas of the Superior 
Court, in particular the Family Court, the Integrated Justice 
Information System, and our problem-solving courts.

                      FAMILY COURT IMPLEMENTATION

    The District of Columbia Family Court Act of 2001 changed the way 
the court serves children and families in the District. The Act 
authorized additional judges and this Subcommittee provided additional 
resources to enable the Court to meet the challenges presented by the 
Act. Key elements of implementing the Act included the One Family/One 
Judge concept, improved use of technology, and creation of family-
friendly space in the courthouse.
    The Family Court, ably led by Presiding Judge Lee Satterfield and 
Division Director Dianne King, after examining best practices around 
the nation, has largely implemented the major elements of the Family 
Court Act. Through close collaboration with Executive Branch agencies 
in the child welfare system, the Family Court is making great strides 
in improving the lives of children and families in the district.
    The Court's Transition Plan, submitted pursuant to the Family Court 
Act in April 2002, set out seven specific goals to achieve its mission 
of providing positive outcomes for children and families. Last month, 
the Court submitted to Congress the third annual Family Court report, 
which details the Family Court's activities in 2004. I would like to 
highlight some of the measures taken and continued recently to achieve 
each goal.
    1. Make child safety and prompt permanency the primary 
considerations in decisions involving children.
  --Completed implementation of one family, one judge case management 
        approach.
  --Increased compliance with the Adoptions and Safe Families Act 
        (ASFA) \1\. In 2003, 93 percent of cases were in compliance 
        with ASFA permanency hearing requirements, compared to 51 
        percent in 2000.
---------------------------------------------------------------------------
    \1\ Refers to the Federal ASFA statute, Public Law 105-89.
---------------------------------------------------------------------------
  --Established Attorney Practice Standards for juvenile cases.
  --Continued use of improved AFSA compliant court order forms.
  --Continued operation of the Mayor's Services Liaison Center at the 
        courthouse.
  --Continued operation of the Benchmark Permanency Hearing pilot 
        program for older youth in foster care to help them make 
        decisions and plans for their future and to coordinate a full 
        range of services necessary for their success when they gain 
        independence. Children 15 years of age or older make up 35 
        percent of children under court supervision in the neglect 
        system.
  --Continued operation of the Family Treatment Court.
    2. Provide early intervention and diversion opportunities for 
juveniles charged with offenses, to enhance rehabilitation and promote 
public safety.
  --Use Time Dollar Institute's Youth Court Diversion Program (run by 
        students).
  --Collaborated with the Metropolitan Police Department to create a 
        Restorative Justice Supervision Program to address an increase 
        in unauthorized use of motor vehicle crimes by juveniles.
    3. Appoint and retained well-trained and highly motivated judicial 
officers.
  --Conducted third annual Family Court Interdisciplinary Cross 
        Training Conference, entitled ``Family Court Partnerships: 
        Supporting the Emotional Well-Being and Mental Health of 
        Children, Youth, and Families,'' in October 2004.
  --Planned and hosted bi-monthly cross training programs for all 
        stakeholders.
  --Participated in national training programs on issues relating to 
        children and families, including training programs and an 
        annual conference of the National Council of Juvenile and 
        Family Court Judges.
    4. Promote alternative dispute resolution.
  --Continued operation of the Child Protection Mediation Program, 
        which has been found to result in significantly faster 
        adjudication, disposition, and permanency in children's cases. 
        In addition, mediation appears to reduce recidivism in neglect 
        cases.
  --Continued implementation of the case evaluation program in 
        partnership with the D.C. Bar, for domestic relations cases 
        when counsel represents parties.
  --Implemented same day mediation in domestic relations cases.
    5. Use technology effectively to track cases of children and 
families.
  --Collaborated with the Child and Family Services Agency (CFSA) to 
        scan court orders into the agency's automated system so that 
        agency social workers have complete and accurate information.
  --Continued operating courtwide the Integrated Justice Information 
        System (IJIS) to facilitate case management.
    6. Encourage and promote collaboration with the community and 
community organizations.
  --Continued to meet regularly with stakeholders and participated in 
        numerous committees of organizations serving children and 
        families.
    7. Provide a family friendly environment by ensuring materials and 
services are understandable and accessible.
  --In July, opened the new Family Court space in the Moultrie 
        Courthouse. This space consolidates the public face of the 
        Family Court with centralized intake center, provides one-stop 
        shopping with the Mayor's Services Liaison Center, and provides 
        a family-friendly environment with comfortable waiting areas 
        decorated with artwork created by children from the D.C. Public 
        Schools.
  --Continued operation of the Pro-Se Self Help Clinic at the 
        courthouse, in partnership with the D.C. Bar, so litigants 
        without counsel can obtain materials about Family Court 
        processes and seek assistance with court forms.
  --Continued review and revision of Family Court forms, through 
        working groups, to make them more understandable.
    I would like to mention one other initiative in the Family Court: 
the Truancy Task Force. A joint effort of the Family Court, the D.C. 
School Board, the D.C. Public Schools, the Child and Family Services 
Agency, the Metropolitan Police Department, the Public Defender Service 
and the D.C. Office of the Attorney General seeks to address truancy, 
which is often the first sign of problems in the home. These problems 
may result in the child's misbehavior, a criminal act that brings 
juvenile delinquency charges, or adult criminal acts.
    The truancy effort involves a protocol for parents of students with 
more than 15 unexcused absences to determine whether services are 
needed, the child is neglected, or a criminal charge should be brought 
for violation of the Compulsory School Attendance Act. One Family Court 
judge hears cases of all of a parents' children. Early intervention 
demonstrates to parents that they have a responsibility to get their 
children to school. CFSA works with the family to determine whether 
services, such as parenting classes, are needed and monitors to make 
sure the children are back in school and no educational or other 
neglect occurs.
    The Truancy Task Force has made great strides over the past year. 
So far this initiative has shown tremendous success: a reduction in 
truancy of 51 percent for elementary school children between the first 
semester of the 2003 school year and the first semester 2004.

                 INTEGRATED JUSTICE INFORMATION SYSTEM

    The Court's major information technology initiative to consolidate 
some 20 different data bases and provide comprehensive information to 
judicial officers was implemented first in the Family Court. The 
Integrated Justice Information System (IJIS) is especially critical in 
the Family Court, where related case data is necessary to make the best 
decisions for children and families.
    IJIS is a multi-year project to replace the aging computer 
infrastructure of the Superior Court and link it with the Court of 
Appeals by creating an integrated case information system to eliminate 
the fragmented legacy systems. The project was commenced in fiscal year 
1999 with a Federal grant-funded needs assessment. After much planning 
and preparation, implementation began late in fiscal year 2002, and we 
expect to complete the implementation later this year.
    Apart from making the policy of one judge/one family possible in 
Family Court, IJIS project is part of a District-wide effort to improve 
information technology within and among the District's criminal justice 
agencies. Once complete, the system will allow the Court electronically 
to store and retrieve data, to make information available to the 
public, and to exchange vital information with law enforcement and 
homeland security agencies much more effectively.
    In August 2003, the Courts implemented Wave 1 of the Family Court. 
Family Court began using IJIS to process adoptions cases, abuse and 
neglect cases, and juvenile delinquency cases. In addition, IJIS was 
used for juvenile probation cases in the Family Court's Social Services 
Division and Family Court mediation cases in the Court's Multi-Door 
Dispute Resolution Division. In December 2003, with Wave 2, IJIS was 
implemented in additional Family Court cases, including domestic 
relations and mental health and mental retardation, and the Marriage 
Bureau and Counsel for Child Abuse and Neglect office. The Central 
Intake Center began using IJIS in August 2004 when it opened.
    The Family Court has been sharing data with the Child and Family 
Services Agency, the Department of Youth and Rehabilitative Services 
(formerly the Youth Services Administration), the Office of the 
Attorney General, and the Pre-Trial Services Agency through the JUSTIS 
system, an interagency data sharing system created originally to 
address criminal justice data sharing needs. The Court has continued to 
involve all interested internal and external stakeholders as it has 
validated requirements, developed testing plans, and conducted 
training.
    IJIS implementation continued in other divisions of the Superior 
Court. The Probate Division began using IJIS in May 2004. IJIS was 
implemented in the Small Claims Branch of the Civil Division in 
December 2004. The Civil Division's Landlord Tenant Branch began using 
IJIS in February 2005. The Criminal Division is scheduled to come on 
line later this year.

                         PROBLEM SOLVING COURTS

    In response to needs in the community we serve, the Superior Court 
has implemented several programs known as problem-solving courts. These 
types of courts are gaining prominence nationally as communities seek 
to cope with lower level or ``quality of life'' crimes and the social 
ills, which frequently underlie these kinds of crimes. These courts 
typically combine restorative justice, in which the offender repays the 
community, such as through community service, and therapeutic justice, 
in which the offender is linked with social services available through 
Executive Branch agencies or in the community, for example alcohol 
counseling.
    The Superior Court has several such problem solving courts. My 
remarks today will highlight the D.C. and Traffic Community Court, the 
East of the River Community Court, a drug court, and the Family 
Treatment Court. In addition, I will discuss the Domestic Violence 
Unit, a one-stop-shopping program that links domestic violence victims 
with government and community assistance.

Community Courts
    Community courts are collaborative efforts that bring together 
courts, government agencies, and community partners to respond to crime 
and public safety issues in innovative ways. In a community court, 
numerous parties play a role in solving local problems--not just the 
traditional judge, prosecutor and defense attorney, but also social 
service providers, government agencies, community organizations, and 
individual residents. Through this partnership, community courts can 
respond more effectively to crime and develop solutions that improve 
outcomes for the community, the victims, and the defendants.
    As in a traditional court setting, these courts seek to determine 
guilt or innocence. Unlike traditional courts, they have a broad array 
of responses. Community courts seek not only to punish offenders but 
also to repair the harm done. Community courts frequently require 
offenders to repay the community by performing court-supervised 
community service. They also seek to reduce the likelihood of future 
offenses by linking offenders to needed services, such as drug 
treatment, job training, or mental health services.
    By strengthening ties between the Court and the community, the 
community courts ultimately seek to improve neighborhood daily life, 
strengthen communities and improve public confidence in the criminal 
justice system. The Superior Court has two community courts: the D.C. 
and Traffic Community Court and the East of the River Community Court.
    Implemented in January 2002, the D.C. and Traffic Community Court 
handles all D.C. misdemeanor cases and traffic violations from all 
parts of the City. D.C. misdemeanor crimes, often referred to as 
``quality of life'' offenses, include, for example, disorderly conduct, 
aggressive panhandling, possession of an open container of alcohol, and 
drinking in public. Although such criminal behavior is not violent, it 
can have significant negative impacts on communities. Much of this 
court's business is traffic cases, including a substantial number of 
cases involving driving without permits, operating after suspension 
and/or revocation. In a diversion program, charges may be dropped 
against defendants without driver's permits if they obtain valid 
licenses.
    The East of the River Community Court was implemented as a pilot 
project in September 2002, and expanded into a permanent program in 
June 2003. This community court handles all U.S. misdemeanor cases 
(i.e., prostitution and minor drug offenses) not involving domestic 
violence that occur in area east of the Anacostia River, a community 
facing significant inner-city challenges, including higher rates of 
poverty, crime and disorder than in other sections of the District. In 
the Community Court, the judge, prosecutor, defense counsel, and 
pretrial services staff work together to identify social service needs 
that may contribute to criminal behavior and to fashion appropriate 
diversion programs to address those needs. Most defendants appearing in 
the Court have substance abuse problems and lack job skills and 
education. In addition, the Court seeks to ensure that those who have 
harmed the community through criminal activities perform community 
service that benefits the same community. The judge seeks to administer 
justice in a manner that reflects a balance between punishment, 
community restitution, and services that the defendant may need. The 
judge also attends numerous community meetings and other neighborhood 
events to establish and strengthen relationships with community 
residents, keep abreast of community developments, and better address 
crime problems and community concerns.

Drug Court
    The Superior Court Drug Intervention Program (Drug Court) was 
launched following a 1993 pilot project determined that a sanctions-
based program, which penalized participants for failing drug tests and 
encouraged treatment, was an effective drug court model due to the 
certainty of penalties, the swiftness of penalties, and the fairness of 
the process. In fiscal 2004, among pre-trial defendants who use drugs, 
23 percent were rearrested while on pretrial release; however, among 
Drug Court participants, only 10 percent were rearrested
    The court serves as a forum for motivating, supporting, and 
measuring progress as the defendant goes through drug rehabilitation. 
Defendants in the Drug Court gain early program intervention after 
arrest, undergo regular urinalysis, and receive immediate access to 
needed treatment. Eligibility requirements for the Drug Court program 
are closely monitored in cooperation with the U.S. Attorney's Office. 
The Drug Court is open to misdemeanants either as a diversion program 
or after a finding of guilty or entry of guilty plea and to felony-
charged defendants as a pre-trial release option.
    The Drug Court uses supervision, client-centered treatment 
interventions, and immediate and meaningful responses to defendant 
behavior to promote each participant's desire to lead a drug free life. 
Case managers monitor the defendant's compliance and provide 
supervision and substance abuse counseling services. Drug-testing staff 
provides results to measure the defendant's progress.

Family Treatment Court
    The Family Treatment Court is a yearlong voluntary, comprehensive 
substance abuse treatment program for mothers (or other female 
caretakers) whose children are the subject of a child neglect case. In 
May 2003, the Family Court and the Office of the Deputy Mayor for 
Children, Youth, Families, and Elders, in cooperation with key District 
health and human services agency stakeholders, partnered to develop the 
Family Treatment Court (FTC), an effort to serve drug-dependent mothers 
with active child neglect cases and to assist them to enhance their 
parenting skills.
    The mission of the FTC is to promote safe and permanent homes for 
children by working collaboratively with stakeholders to develop 
readily accessible services based on a continuum of care that is 
culturally competent, family focused, and strength based. The goal of 
the FTC is to help the individual abstain from drug use and to promote 
emotional, financial, and personal self-sufficiency with enhanced 
parenting and coping skills.
    Those interested in participating must stipulate to the allegations 
of neglect. The first 6 months involve the residential component of the 
program, where the women are housed in a treatment facility. Following 
a period of adjustment, up to four children aged ten and under may 
accompany their mother in the program. Program participants receive 
intensive drug treatment, individual and/or family counseling, 
parenting instruction, health screenings, mental health treatment, and 
biweekly court appearances before the Family Treatment Court Judge. 
Social workers from the Child and Family Services Agency ensure that 
the goals embodied in the identified treatment plan for both children 
and their mother are met.
    If the mothers successfully complete the residential phase, they 
formally graduate and proceed to the community-based after care phase 
under the auspices of the Addiction Prevention and Recovery Program 
(APRA). Strict court monitoring and drug testing remain in effect. 
Through the collaborative efforts of the Mayor's Services Liaison 
Office and stakeholder partnerships, the women are afforded 
opportunities to procure housing and jobs and to further their 
education.

Domestic Violence Unit
    The Court's award-winning Domestic Violence Unit hears cases in 
which parties request protection orders against persons to whom they 
are related. The Unit provides ``one-stop-shopping'' for domestic 
violence victims through two intake centers staffed by the U.S. 
Attorney's Office, the D.C. Office of the Attorney General, the 
Metropolitan Police Department, Women Empowered Against Violence 
(WEAVE), and D.C. Coalition Against Domestic Violence. Victims can file 
for a temporary protection order on the basis of alleged domestic 
violence, receive legal counsel, and support services, and meet with an 
advocate from the Court's Crime Victim's Compensation Program to find 
out about other resources available to them.
    In October 2002, the Court opened the satellite Domestic Violence 
Intake Center at Greater Southeast Hospital. Twenty-eight percent of 
new domestic violence cases are filed at the Southeast center. The 
location is convenient for Southeast residents: there is free parking 
and it is Metro-accessible. In addition, the location in the hospital 
facilitates the provision of both medical care and legal protection. 
The petitioner is transported via a web camera to the judicial officer 
hearing the request in a courtroom at the Moultrie Courthouse. Judges 
hear and see the petitioners and, if appropriate, grant and issue 
temporary protection orders, which are transmitted electronically from 
the courtroom to the waiting petitioner at the Center.
    The four judges and two magistrate judges in the Domestic Violence 
Unit also hear cases alleging violations of protection orders and all 
misdemeanor criminal cases involving an ``intrafamily offense.'' When 
appropriate, judges in the Domestic Violence Unit also adjudicate 
related divorce, custody, visitation, paternity and support cases 
involving the same parties, as well as certain related civil actions.

                               CONCLUSION

    Mister Chairman, Senator Landrieu, the D.C. Courts are proud of our 
efforts to serve children and families, to implement technology that 
enables to enhance our service to the public, and to respond to the 
community. We expect to continue these programs in the future, with 
your support. Thank you for this opportunity to address the 
Subcommittee. I would be pleased to answer any questions you may wish 
to pose.

             Court Services and Offender Supervision Agency

STATEMENT OF HON. PAUL A. QUANDER, JR., DIRECTOR
    Senator Brownback. Mr. Quander.
    Mr. Quander. Good morning, Chairman Brownback.

    Thank you for the opportunity to appear before you today in 
support of the Court Services and Offender Supervision Agency's 
(CSOSA) fiscal year 2006 budget request. As you are aware, 
CSOSA provides community supervision to approximately 15,000 
offenders sentenced under the District of Columbia Code. The 
Pretrial Services Agency, which is an independent entity within 
CSOSA, supervises an additional 7,000 defendants.
    CSOSA requests $203,388,000 in direct budget authority for 
fiscal year 2006. Of this amount, $131,360,000 is for the 
Community Supervision Program, which supervises sentenced 
offenders; $42,195,000 is for the Pretrial Services Agency; and 
$29,833,000 is for the Public Defender Service, which transmits 
its budget with CSOSA's. The total budget request represents a 
14 percent increase over CSOSA's fiscal year 2005 enacted 
budget.
    Our fiscal year 2006 budget contains one major request, to 
fully implement an ongoing initiative. The Community 
Supervision Program requests $14,630,000 and 77 positions to 
operate the Reentry and Sanctions Center, or RSC, at Karrick 
Hall. This facility housed our Assessment and Orientation 
Center Program, or AOC, until 2004, when the program was 
temporarily relocated to allow the much-needed renovation work 
to be completed at Karrick Hall, which is on the grounds of 
D.C. General Hospital.
    In fiscal year 2002, CSOSA received a $13 million 
appropriation to renovate and expand the AOC program. We 
greatly appreciate the subcommittee's past support for these 
funds. At that time, Congress authorized 95 positions necessary 
to operate the expanded units. Eighteen of these positions were 
funded in fiscal year 2004 to allow us to begin hiring the key 
staff that must be in place during the pre-operations planning 
and training process. The renovations are scheduled for 
completion early in fiscal year 2006. In order for us to open 
the new units on schedule, we need to begin hiring the 
remaining 77 positions several months before the expected 
opening.
    The Reentry and Sanctions Center is based on the Assessment 
and Orientation Center Program model, which has been in 
operation since 1996. The AOC is a 30-day transition from 
prison to community, designed specifically for high-risk 
substance abusing offenders. The program focuses on physical, 
intellectual, and emotional assessment and treatment readiness. 
AOC participants are often not appropriate for Halfway House 
placements, so the AOC provides an essential alternative to 
direct release from prison to the street. The AOC also provides 
services to defendants who are court-ordered to participate in 
this program.
    The Reentry and Sanctions Center will expand the AOC 
capacity from its current 27 beds to approximately 100 beds, 
enabling us to offer these services to about 1,200 individuals 
per year. These beds will be divided into four men's units, one 
female unit, and one unit for offenders with mental health 
issues. We are particularly eager to make the AOC program 
available to the underserved female population. The expanded 
capacity will enable us to realize the great potential of this 
program as a residential sanction for supervised offenders and 
defendants who relapse into substance abuse. Residential 
sanctions are an essential aspect of effective community 
supervision, particularly if they can be imposed quickly. 
Removing the offender from the external factors that contribute 
to the violation also allows us to assess and stabilize him or 
her, evaluate the case plan, and make adjustments before 
incarceration is the only option.
    An initial study of the AOC's effectiveness indicated a 
74.5 percent drop in drug use after 1 year among program 
graduates. The type of programming offered at the AOC, and 
expanded to the Reentry and Sanctions Center, improves 
treatment outcomes, which, in turn improves supervision 
outcomes.
    Although the Reentry and Sanctions Center is the main 
feature of our budget request, I would also like to highlight a 
few of this past year's most important accomplishments.
    We have developed an automated research-based risk and 
needs assessment tool that will assist our community 
supervision officers in developing prescriptive supervision 
plans and improving case management.
    We opened a Day Reporting Center Program to provide an all-
day supervision option for high-risk offenders.
    We expanded our global positioning system electronic 
monitoring program, begun as a pilot in fiscal year 2004, to an 
average caseload of approximately 50 offenders. The Pretrial 
Services Agency increased the use of electronic monitoring to 
all defendants assigned to heightened or intensive supervision.
    We continue our faith initiative, matching returning 
offenders with volunteer mentors from the area's faith 
institutions. This January, we celebrated our fourth reentry 
week, a series of events highlighting the faith-community 
concern for, and contribution to, returning offenders.

                           PREPARED STATEMENT

    In conclusion, I would like to thank the subcommittee for 
your continued support for our program. I remain confident that 
we are putting in place the most effective community 
supervision program possible and that the citizens of the 
District of Columbia will be safer, as a result.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you very much.
    [The statement follows:]

               Prepared Statement of Paul A. Quander, Jr.

    Chairman Brownback and Members of the Subcommittee: Thank you for 
the opportunity to appear before you today in support of the Court 
Services and Offender Supervision Agency's (CSOSA's) fiscal year 2006 
budget request. As you know, CSOSA provides community supervision to 
approximately 15,000 offenders sentenced under the D.C. Code. The 
Pretrial Services Agency, which is an independent entity within CSOSA, 
supervises an additional 8,000 defendants. Since its establishment in 
1997, CSOSA has rebuilt community supervision in the District of 
Columbia. We are proud to say that we now have one of the most 
responsive, innovative, and comprehensive systems of community 
supervision in the country. While we are still implementing some key 
aspects of our program model, we believe that we have put in place a 
system of accountability, sanctions, and support services that will 
enable us to better achieve our public safety mission.
    CSOSA requests $203,388,000 in direct budget authority for fiscal 
year 2006. Of this amount, $131,360,000 is for the Community 
Supervision Program, which supervises sentenced offenders; $42,195,000 
is for the Pretrial Services Agency; and $29,833,000 is for the D.C. 
Public Defender Service, which transmits its budget with CSOSA's. The 
total budget request represents a 14 percent increase over CSOSA's 
fiscal year 2005 enacted budget.
    Our fiscal year 2006 budget contains one major request to fully 
implement an ongoing initiative. The Community Supervision Program 
requests $14,630,000 and 77 positions to operate the Reentry and 
Sanctions Center, or RSC, at Karrick Hall. This facility housed our 
Assessment and Orientation Center Program until 2004, when the program 
was temporarily relocated to allow the much-needed renovation work to 
begin.
    In fiscal year 2002, CSOSA received a $13 million appropriation to 
renovate and expand the Assessment and Orientation Center program. At 
that time, Congress authorized the 95 positions necessary to operate 
the expansion units. Eighteen of these positions were funded in fiscal 
year 2004 to allow us to begin hiring the key staff that must be in 
place during the pre-operations planning and training process. The 
renovations are scheduled for completion early in fiscal year 2006. In 
order for us to open the new units on schedule, we need to begin hiring 
the remaining 77 positions several months before the expected opening.
    We greatly appreciate the Subcommittee's past support of the 
Reentry and Sanctions Center. As we move toward implementation, I would 
like to take a moment to discuss the program, its place in our overall 
strategy, and the potential benefits it can realize.
    The Reentry and Sanctions Center is based on our successful 
Assessment and Orientation Center, or AOC, which has been operating 
since 1996. The AOC targets offenders and defendants with long 
histories of substance abuse and crime. Although nearly 70 percent of 
CSOSA's population has a history of substance abuse, it is this core 
group of long-term users that are the most resistant to change, the 
most intractable--and the most likely to recidivate. The AOC program 
targets these individuals with 30 days of intensive programming. For 
offenders, this is a critical period during reentry from prison to the 
community. Many of these offenders leave prison without secure housing, 
family connections, or community ties. They have been away a long time, 
and they have no idea where to go or how to do things differently. At 
the AOC, we provide comprehensive intellectual, psychological, and 
physical assessments so that we understand each individual's particular 
issues. If there's a health issue, we ensure that the offender gets 
treatment. If there's a psychological issue, we ensure that he has 
access to appropriate therapy. We provide programming and support to 
help the offender clarify his thinking about what he needs to do. We 
explain the rules and processes of supervision so that the offender 
understands what is expected of him. In short, the AOC is a 30-day 
transition from prison to community designed specifically for the high-
risk substance abusing offender. These individuals are often not 
appropriate for Halfway House placement, so the AOC provides an 
essential alternative to direct release from prison to the street. The 
AOC also provides services to defendants who are court-ordered to 
participate in the program.
    The Reentry and Sanctions Center will expand the AOC's capacity 
from its current 27 beds to approximately 100 beds, enabling us to 
offer these services to about 1,200 individuals per year. These beds 
will be divided into four men's units, one women's unit, and one unit 
for offenders with mental health diagnoses. We are particularly eager 
to make the AOC program available to the underserved female population.
    The expanded capacity will enable us to realize the great potential 
of this program as a residential sanction for supervised offenders and 
defendants who are relapsing into substance abuse. Residential 
sanctions are an essential aspect of effective community supervision, 
particularly if they can be imposed quickly. The longer the interval 
between violation and sanction, the less force the sanction carries--
and the more time the offender has to escalate to even more dangerous 
behavior. Removing the offender from the external factors that 
contributed to the violation allows us to assess and stabilize him or 
her, evaluate the case plan, and make adjustments before the behavior 
gets to the point that supervision cannot contain it. Having this type 
of environment is particularly important for special needs offenders, 
such as those with dual mental health and substance abuse issues, who 
are currently somewhat difficult to place in our Halfway Back 
residential sanctions.
    An initial study of the AOC's effectiveness indicated a 74.5 
percent drop in drug use after 1 year among program graduates. 
Criminologist Dr. Faye Taxman, who has studied effective supervision 
practices extensively, has written, ``Pretreatment activities are 
critical to improving the client's commitment to behavior change, 
motivation, and adjustment to the treatment process.'' \1\ In other 
words, the type of programming offered at the AOC, and expanded to the 
Reentry and Sanctions Center, improves treatment outcomes--which in 
turn improves supervision outcomes.
---------------------------------------------------------------------------
    \1\ Faye Taxman, Ph.D. ``Unraveling 'What Works' for Offender in 
Substance Abuse Treatment,'' National Drug Court Institute Review, Vol. 
II, No. 2, 1999.
---------------------------------------------------------------------------
    CSOSA's strategic plan identifies four critical success factors 
that are essential to our success: risk and needs assessment, close 
supervision, treatment and support services, and partnerships. The 
Reentry and Sanctions Center initiative touches all of those factors. 
It will be our most powerful tool to date in a system of assessment-
driven, community-based supervision that is already a national model.
    Although the Reentry and Sanctions Center is the main feature of 
our budget request, I would also like to highlight several of this past 
year's most important accomplishments:
  --We have developed an automated, research-based risk and needs 
        assessment tool that will assist our Community Supervision 
        Officers in developing prescriptive supervision plans.
  --We have fully implemented electronic submission of Presentence 
        Investigation Reports, raising our on-time completion rate from 
        51 percent in 2002 to 97 percent last year.
  --We continue to increase offender drug testing. The average monthly 
        frequency has risen from 1.9 times per month in 1999 to 3.7 
        times per month last year.
  --We opened a Day Reporting Center program to provide an all-day 
        supervision option for high-risk offenders. This program 
        involves unemployed offenders in academic and vocational 
        education, as well as life skills classes, to increase their 
        compliance with supervision.
  --We implemented several key enhancements in our automated case 
        management system, including automated rearrest notification, 
        automated violation reporting, and an expanded management 
        reporting capability.
  --We expanded our Global Positioning System electronic monitoring 
        program, begun as a pilot in fiscal year 2004, to an average 
        caseload of approximately 50 offenders.
  --We continue to implement our model of supervising offenders in 
        their communities. This past year, we signed a lease on a new 
        field unit on Rhode Island Avenue, and we are developing a Far 
        Northeast Field Unit on Benning Road. These units will close a 
        critical gap in ensuring that our Community Supervision 
        Officers are deployed throughout the neighborhoods in which 
        most offenders reside. At the Benning Road site, the Pretrial 
        Services Agency will also locate supervision officers in the 
        field for the first time. In developing these projects, we 
        continue to work collaboratively with community groups to 
        ensure that our presence is welcome and our mission is known.
  --We have achieved a 94 percent response rate to offender supervision 
        violations. The implementation of the Reentry and Sanctions 
        Center will increase the range of sanctions available to us, 
        but I am pleased to report that we are already responding to 
        the vast majority of violations. The Pretrial Services Agency 
        also improved its response rates in fiscal year 2004, 
        sanctioning 80 percent of drug testing violations, 79 percent 
        of contact conditions, 83 percent of curfew conditions 
        violations, and 97 percent of treatment program condition 
        violations.
  --The Pretrial Services Agency increased the use of electronic 
        monitoring to all defendants assigned to Heightened or 
        Intensive Supervision.
  --We continue our faith initiative, matching returning offenders with 
        volunteer mentors from the area's faith institutions. This 
        January, we celebrated our fourth Reentry Week, a series of 
        events highlighting the faith community's concern for, and 
        contribution to, returning offenders. This year's Reentry Week 
        featured a community forum organized by previously incarcerated 
        persons to discuss implementation of the District's Citywide 
        Reentry Strategy, which CSOSA played a major role in 
        developing.
  --We continued our outreach to the Rivers Correctional Institution in 
        North Carolina, which houses over 1,000 D.C. offenders. We are 
        now conducting quarterly ``Community Resource Day'' 
        presentations via videoconference. These presentations provide 
        information on housing, health care, education, and 
        employment--as well as presentations about supervision and 
        release--to inmates within 90 days of reentry.
    In conclusion, I want to thank the subcommittee for your continued 
support for our program. As you can see, CSOSA is in transition. Soon, 
we will be able to say that we have completed the system we set out to 
build. I remain confident that it is the most effective community 
supervision program possible, and that the citizens of the District of 
Columbia will be safer as a result of its implementation.

                        Public Defender Service

STATEMENT OF AVIS E. BUCHANAN, ESQ., DIRECTOR
    Senator Brownback. Ms. Buchanan, thank you for joining us 
today.
    Ms. Buchanan. Good morning, Mr. Chairman and members of the 
subcommittee.

                              INTRODUCTION

    I am Avis E. Buchanan, Director of the Public Defender 
Service for the District of Columbia. I am here today to 
testify in support of PDS's fiscal year 2006 budget request. We 
thank the subcommittee for its earlier support of our programs, 
and I welcome you, Senator Brownback, to your new chairmanship.
    In 2005, PDS will proudly mark its 35th year of providing 
quality defense representation to people in the District of 
Columbia. Since 1970, when PDS took on its role as a model 
public defender, PDS has maintained a reputation as the best 
public defender office in the country, local or Federal. To 
maintain that reputation, PDS has designated fiscal year 2006 
as a year of performance management assessment for PDS. We will 
continue to evaluate our staffing complement and our fiscal 
year 2005 data collection for our constitutionally mandated 
mission. We are, therefore, proposing a budget that remains at 
the level of the President's fiscal year 2005 budget request, 
$29.8 million.
    PDS's core work consists of the more serious, complex, and 
resource-intensive criminal cases, but PDS also handles matters 
such as criminal appeals, serious delinquency charges, parole 
revocations, involuntary mental health system commitments, drug 
court, and special education for children in the delinquency 
system.

                    FISCAL YEAR 2005 ACCOMPLISHMENTS

    PDS has grown more sophisticated in its administrative and 
program functioning since 1970. Our fiscal year 2005 
accomplishments include implementing our first-ever strategic 
plan and conducting our first-ever survey of the District's 
local judges. All 35 responding trial court judges agreed, and 
27 of these strongly agreed--the highest-possible rating--that 
PDS provides and promotes quality legal representation to the 
indigent.
    One appellate judge wrote, ``Of all the litigants' counsel 
who come before the Court of Appeals on a regular basis, PDS 
lawyers are uniformly better. They give this judge, and, I 
believe, all judges, a sense that their clients are soundly and 
zealously represented while giving the court considered legal 
arguments. If I were facing prosecution in the District of 
Columbia, I would want PDS to represent me.''
    I am proud of that opinion of this office. I am proud that 
PDS collaborates with others to improve the justice system, 
that we touch individual lives, that we have a strong training 
program, and that we have improved our operations.

                        PROGRAM ACCOMPLISHMENTS

    Our collaborative work includes helping to develop the 
District's new pilot sentencing program. The pilot program uses 
voluntary sentencing guidelines developed by the D.C. 
Sentencing Commission, which PDS served on along with community 
representatives and criminal justice agency representatives. 
The preliminary compliance rate of this voluntary system is 
close to 90 percent.
    PDS's activities during fiscal year 2005 had significant 
implications for individual clients or improved the 
administration of justice. The Offender Rehabilitation Division 
(ORD) worked with a woman who was diagnosed with mental 
retardation, but who dropped out of the sixth grade after not 
receiving specialized services in school. ORD, the division, 
referred her to a residential treatment program run by a faith-
based organization. The client completed the program, and, 
through the program, received vocational training to become a 
home health aide. After she graduated from the program, the 
division referred her to a program run by a different faith-
based group. The program helps people with mental illness 
transition to permanent independent housing.
    The Appellate Division won a motion for a new trial based 
on the ineffective assistance of counsel provided by a private 
attorney who had been paid thousands of dollars by the 
defendant's family, but who conducted virtually no 
investigation of the very serious charges the client was 
facing. The successful motion followed painstaking 
reinvestigation of the case. The government elected not to 
retry the client.
    In fiscal year 2005, our Community Defender Division's 
Reentry Program identified resources available to PDS's 
reentering clients, and organized a panel to educate judges and 
practitioners about children with incarcerated parents. The 
Reentry Program also assisted the members of the East of the 
River Clergy-Police-Community Partnership in planning a reentry 
forum for community members, attorneys, social workers, 
counselors, and prison ministries.
    Our Special Litigation Division has been expanding PDS's 
work on various scientific issues in the courtroom. The 
exoneration of individuals through DNA evidence has revealed 
that flawed eyewitness testimony was involved in 80 percent of 
the cases. The Special Litigation Division, working closely 
with the Trial Division, has pulled together scientific 
research assessing witness identification and the various 
identification procedures used by law enforcement. This 
information has been used to educate lawyers so that they might 
better educate judges and jurors about what circumstances are 
more likely to produce mistaken identification.
    PDS conducts and participates in numerous training programs 
for its own staff and for others. A training highlight is PDS's 
2003 and 2004 Forensic Science Conferences. In 2004, various 
experts taught judges, lawyers, and others about crime scene 
investigation, sentencing, and bodily injuries. The third 
conference, scheduled for September 2005, will incorporate the 
Trial Division's growing expertise in challenging both DNA 
evidence and cases arising out of database searches, in 
anticipation of the President's initiative to reduce the 
backlog of DNA cases.

                     ADMINISTRATIVE ACCOMPLISHMENTS

    PDS's administrative accomplishments are further steps 
toward better serving clients and better modeling excellent 
financial and management practices. PDS's relatively new status 
as a federally funded entity and the guidance of the 
President's management agenda have allowed us to enhance our 
acquisition management and our competitive sourcing, to improve 
our ability to develop financial and performance management 
integration, and to implement relevant e-government 
initiatives.
    And in the area of human capital, PDS has a workforce with 
a strong affinity to the clients, mission, and management of 
PDS. In a recent employee survey, 99 percent of the respondents 
reported being proud to work for PDS--the highest score on this 
question of any organization, private or government, that our 
contractor has surveyed.

                               CONCLUSION

    In closing, I'd like to make two points. One, in a mid-
1970s report, the Department of Justice designated PDS as an 
exemplary project, praising PDS's defense model. It's an 
approach that PDS has remained committed to for 30 years. Two, 
PDS still achieves a level of quality representation that is to 
be sustained and emulated.

                           PREPARED STATEMENT

    I would like to thank the members of the subcommittee for 
your time and attention to these matters and for your support 
of our work to date. I would be happy to answer any questions 
the subcommittee members may have.
    Senator Brownback. Thank you, Ms. Buchanan, appreciate 
that.
    [The statement follows:]

              Prepared Statement of Avis E. Buchanan, Esq.

    Good afternoon, Mister Chairman and members of the Subcommittee. My 
name is Avis E. Buchanan, and I am the Director of the Public Defender 
Service for the District of Columbia (PDS). I come before you today to 
provide testimony in support of PDS's fiscal year 2006 budget request. 
We thank this Subcommittee for its support of our programs in previous 
years.
    In 2005, the Public Defender Service will mark its 35th year of 
providing quality defense representation to people in the District of 
Columbia. Since 1970, when PDS took on its intended role as a model 
public defender, PDS has developed and maintained a reputation as the 
best public defender office in the country--local or Federal. PDS has 
become the national standard bearer and the benchmark by which other 
public defense organizations often measure themselves in a number of 
practice and administrative areas.
    To maintain that reputation, PDS has designated fiscal year 2006 as 
a year of performance management assessment for PDS, a year in which we 
want to work to increase our internal efficiencies. Setting this goal 
has led us to propose a budget that remains at the level of the 
President's fiscal year 2005 budget request. All pay raises and other 
resource needs will be funded by internal spending reallocations and 
business efficiencies. PDS does not anticipate any increase to staffing 
levels. After several years of investment, PDS will use fiscal year 
2006 to continue to evaluate its strategic direction for human capital 
and the amount of support required by the legal divisions. Also, PDS 
will evaluate its fiscal year 2005 data collection for quantitative and 
qualitative performance measures. These measures will serve as a 
baseline as we transition to performance-based budgeting and management 
that assist in maintaining quality representation for indigent persons 
in the District of Columbia courts.

                               BACKGROUND

    In the District of Columbia, PDS and the local District of Columbia 
courts share the responsibility for providing constitutionally mandated 
defense representation to people who cannot pay for their own attorney. 
Under the District of Columbia's Criminal Justice Act (CJA) \1\, the 
District of Columbia courts appoint PDS generally to the more serious, 
more complex, resource-intensive, and time-consuming criminal cases. 
The courts assign the remaining, less serious cases and the majority of 
the misdemeanor and traffic cases to a panel of approximately 350 pre-
screened private attorneys (``CJA attorneys''). Approximately 110 PDS 
staff lawyers are appointed to represent: a majority of people facing 
the most serious felony charges; a substantial number of individuals 
litigating criminal appeals; a significant number of the children 
facing serious delinquency charges; nearly 100 percent of all people 
facing parole revocation; and the majority of people in the mental 
health system who are facing involuntary civil commitment.
---------------------------------------------------------------------------
    \1\ D.C. Code  11-2601 et seq. (2001 Ed).
---------------------------------------------------------------------------
    While much of our work is devoted to ensuring that no person is 
ever wrongfully convicted of a crime, we also provide legal 
representation to recovering substance abusers participating in the 
highly successful Drug Court treatment program, and to children in the 
delinquency system who have learning disabilities and require special 
educational accommodations under the Individuals with Disabilities in 
Education Act.\2\
---------------------------------------------------------------------------
    \2\ 20 U.S.C.  1400, et seq.
---------------------------------------------------------------------------
    The Public Defender Service, unique among local public defender 
offices in that it is federally funded,\3\ has always been committed to 
its mission of providing and promoting constitutionally mandated legal 
representation to adults and children facing a loss of liberty in the 
District of Columbia who cannot afford a lawyer, and we have had 
numerous significant accomplishments in pursuit of that mission. In 
addition, PDS has developed innovative approaches to representation, 
from instituting measures to address the problems of clients returning 
to the community who have been incarcerated to creating a one-of-a-kind 
electronic case tracking system. Other public defender offices across 
the country have sought counsel from PDS as they have patterned their 
approach to their work after ours.
---------------------------------------------------------------------------
    \3\ As a result of the National Capital Revitalization and Self-
Government Improvement Act of 1997 (the ``Revitalization Act''), PDS 
was established as a federally funded, independent District of Columbia 
organization. In accordance with the Revitalization Act, PDS transmits 
its budget and receives its appropriation as a transfer through the 
Court Services and Offender Supervision Agency (CSOSA) appropriation. 
Pub. L. No. 105-33, Title X (1997).
---------------------------------------------------------------------------
    As part of its statutory mission to promote quality criminal 
defense representation in the District of Columbia as a whole, PDS has 
also provided training for other District of Columbia defense attorneys 
and investigators who represent those who cannot afford an attorney, 
and PDS has provided support to the District of Columbia courts.

                    FISCAL YEAR 2005 ACCOMPLISHMENTS

    PDS has grown more sophisticated in its administrative and program 
functioning since 1970. PDS has drafted its first-ever strategic plan 
and annual performance plan, and has begun incorporating them more 
fully into the management of our client service.
    In an effort to develop performance baselines, and in conjunction 
with its strategic plan, PDS conducted an anonymous survey of the 
District's local trial and appellate judges before whom we regularly 
appear. Of the 60 trial judges who received the survey, 35 responded. 
All 35 agreed (27 of these ``strongly agreed''--the highest possible 
rating on the survey) that PDS staff provides and promotes quality 
legal representation to indigent adults and children facing a loss of 
liberty. All 35 agreed (23 ``strongly agreed'') that PDS staff are well 
prepared to defend their clients. Of the 16 of the appellate judges to 
whom the survey was sent, half responded, all of whom agreed that PDS 
staff provide and promote quality legal representation, are zealous 
advocates for their clients, and are well prepared to defend their 
clients. In fact, one appellate judge wrote:

    ``Of all the litigants' counsel who come before the Court of 
Appeals on a regular basis, PDS lawyers are uniformly better. They give 
this judge--and I believe all judges--a sense that their clients are 
soundly and zealously represented while giving the court considered 
legal arguments. If I were facing prosecution in D.C., I would want PDS 
to represent me.''

                    GENERAL PROGRAM ACCOMPLISHMENTS
                           COLLABORATIVE WORK

    Although widely known for zealously participating in the 
adversarial process of the criminal justice system, PDS also works 
closely with criminal justice agencies and the courts to improve the 
system and make it function more efficiently and fairly.
Sentencing Guidelines
    In June 2004, the Superior Court began a pilot sentencing program 
using voluntary sentencing guidelines developed by the D.C. Sentencing 
Commission. PDS is a member of the D.C. Sentencing Commission along 
with three D.C. Superior Court judges; representatives from the Office 
of the United States Attorney, the District of Columbia Office of the 
Attorney General, the Court Services and Offender Supervision Agency, 
the D.C. Metropolitan Police Department, the D.C. Department of 
Corrections, and the U.S. Bureau of Prisons; and citizens representing 
victims and families of inmates. Although the system is voluntary, the 
preliminary data gathered thus far shows an extremely high compliance 
rate of close to 90 percent.\4\
---------------------------------------------------------------------------
    \4\ Preliminary data shows that of the sentencings that occurred in 
felony cases since June 14th, 2004 and that were reported to the D.C. 
Sentencing Commission, over 90 percent were within the recommended 
guideline range. This statistic does not include allowable departures, 
either upward or downward. The statistic may actually be higher, as it 
appears that some sentences outside the recommended range were 
inadvertent and resulted from unfamiliarity with this very new system. 
By comparison, in the Federal guidelines system, since the Supreme 
Court's decision in United States v. Booker-Fanfan, 125 S.Ct. 738 
(2004), 62 percent of cases are within guidelines ranges. See U.S. 
Sentencing Commission Memorandum, from Office of Policy Analysis, to 
Judge Hinojosa, Chair (March 22, 2005). The two systems differ in many 
respects that would affect this compliance rate, including the fact 
that guideline ranges in the Federal system are narrower than those in 
the District's system.
---------------------------------------------------------------------------
    While the Sentencing Commission looked to Federal and State 
guidelines systems for ideas, it created a system most suited to the 
District. The PDS representatives, the U.S. Attorney's representatives, 
and the judges crafted the details of the system, to which the full 
Commission gave final approval. This almost unprecedented collaboration 
on a hotly debated topic may be part of the reason for the high 
compliance rate. The long, and often contentious, working sessions 
produced a fair and balanced system that may well achieve the goal of 
greater uniformity and predictability in sentencing.
    Once the guidelines were completed, PDS and the U.S. Attorney's 
Office continued this collaboration, drafting a lengthy, detailed 
practice manual. Together PDS and the U.S. Attorney's Office resolve 
the many problems that arise in the implementation of such a 
complicated system. PDS conducted internal trainings on the new 
guidelines as well as numerous trainings for the private criminal 
defense bar and, with the U.S. Attorney's Office, assisted with the 
training of the judges and of the CSOSA staffers responsible for 
preparing presentence reports and completing initial guidelines 
calculation recommendations for the court.
Competency to Stand Trial in Criminal Court
    The District of Columbia Code statute that governs proceedings to 
determine a defendant's competence to stand trial has undergone few 
changes in the almost five decades since its enactment. However, 
evolving Supreme Court and District of Columbia courts jurisprudence, 
as well as increased understanding of mental illness, have made the 
statute outdated. PDS drafted a complete overhaul of the competency 
statute, improving and updating it, and shared it with the Chair of the 
D.C. Council's Committee on the Judiciary, who introduced it as a bill. 
PDS, the U.S. Attorney's Office, D.C.'s Office of the Attorney General, 
and the D.C. Department of Mental Health then modified the bill in 
response to the concerns of all the parties to the system. The 
negotiated bill passed the D.C. Council unanimously at the end of 2004 
and is projected to become law in April 2005.
Practice Standards in Family Court
    PDS worked with judges in the D.C. Family Court to create practice 
standards for panel lawyers representing children charged with acts of 
delinquency. These practice standards establish minimum requirements 
for attorneys such as how often to visit the client and how many hours 
of continuing legal education each attorney must receive each year.
    These are just a few examples of how PDS works with the court and 
with other entities engaged in the criminal justice system to improve 
and enhance criminal justice in the District of Columbia.

                     OTHER PROGRAM ACCOMPLISHMENTS

    PDS engaged in a number of activities during fiscal year 2005 that 
had significant implications for individual clients or that improved 
the overall administration of justice.

Individual Clients
    The core work of PDS is the representation of individual clients 
facing a loss of liberty. As you know, the criminal justice system is 
premised on an adversarial system, and PDS has able adversaries in the 
District's Attorney General's Office and the United States Attorney's 
Office for the District of Columbia. A fair criminal justice system 
depends on having all components (judges, government, and defense) 
fulfill their respective roles. PDS plays a pivotal part in ensuring 
that all cases, whether they result in pleas or trials, involve 
comprehensive investigation and thorough consultation with the client, 
and that the trials constitute a full and fair airing of reliable 
evidence. As it has every year since its inception, in fiscal year 
2005, PDS won many trials, fought a forceful fight in others, and found 
resolution prior to trial for many clients. Whatever the outcome, PDS's 
goal for each client was competent, quality representation.
    All of these cases and their outcomes are far too varied and 
numerous to recount here, and the ethical rules that protect all 
clients' confidences, regardless of their economic circumstances, 
preclude me from providing detailed examples. Instead, the following 
cases, absent identifying information, are a small sample of how 
competent, quality representation can change lives.
    Mental Health.--The Mental Health Division won the release of a 
client who had been committed to St. Elizabeths since the mid-1970s on 
a finding of not guilty by reason of insanity on a charge of attempt 
shoplifting. After spending nearly 30 years at St. Elizabeths on a 
charge that carried a maximum jail sentence of no more than a year, the 
client is now, through the assistance of the D.C. Department of Mental 
Health, living in a sponsored, independent apartment and working in a 
supervised environment.
    Children.--The Trial Division represented a teenager who was 
charged with driving a stolen car after he crashed the car. PDS's 
investigation and an independent professional evaluation revealed that 
the teenager, who had not been to school for years and who had been 
essentially abandoned as a child by his mother because she was 
chronically ill, had been trying to commit suicide with the car crash. 
Helped by PDS to identify the problems and identify appropriate 
services, the teenager raised his reading level from kindergarten to 
3rd grade, responded positively to therapy, and entered a therapeutic 
foster home.
    Men.--PDS's Offender Rehabilitation Division helped a young man who 
was charged with unauthorized use of a vehicle. His mother's history of 
cocaine abuse led to her being in and out of prison. As a result, the 
client grew up in the foster care system and dropped out of the 9th 
grade. After a presentation from ORD staff and the trial attorney, the 
court put the young man on probation with the condition that he 
complete a rigorous, year-long residential rehabilitation program 
operated by a faith-based social service organization. The program 
required that he report to work every day to support the organization's 
mission. With much supervision and support from the ORD staff, the 
client overcame his lack of a good work history and of a familiarity 
with good work habits, and became a more reliable, more timely, and 
more responsible worker. The client also participated in various groups 
run by the program, such as a Bible-based enrichment group that helps 
participants become more responsible as individuals and as members of 
the community. Although he struggled, the young man completed the 
program successfully and, as a result of his progress, the judge 
released him from probation early. The client is now planning to 
complete his GED and obtain certification as an electrical technician.
    Women.--The Offender Rehabilitation Division works with many 
clients who are in the criminal justice system as a result of substance 
abuse. Often this abuse is symptomatic of an underlying problem that 
must be identified and addressed to ensure recovery. One such client 
was a woman who was diagnosed with mental retardation, but who dropped 
out of the 6th grade after not receiving specialized services in 
school. ORD referred her to a residential drug treatment program for 
women run by a faith-based organization. The client completed the 
program and, through the program, received vocational training to 
become a home health aide. After the client graduated from the program, 
ORD referred her to a transitional living program run by a different 
faith-based group. The program, which accepted the client, helps people 
with mental disabilities move over the course of a couple of years to 
permanent, independent housing.

Appellate Division
    The Appellate Division's appellate litigation has impact throughout 
the District's criminal justice system as decisions in their cases 
often establish or clarify the standards trial court judges and 
litigants must follow in criminal and juvenile cases. The complex and 
novel legal issues the Division is called upon to address therefore are 
best handled by experienced and talented attorneys--which the Division 
does not lack.
    Ensuring Fairness.--The Government's long-standing obligation to 
disclose exculpatory evidence to the defense in a timely fashion 
reflects the considered judgment of our justice system that the search 
for truth cannot succeed if the prosecutor conceals material 
information tending to prove the defendant innocent or tending to 
undermine the reliability of the government's witnesses. Unfortunately, 
however, prosecutors sometimes fail to honor their obligation to 
disclose this ``Brady \5\ information,'' and only thorough 
investigation by defense counsel brings these failures to light. In 
four cases during fiscal year 2004, the Appellate Division uncovered 
Brady information that had not been disclosed to trial counsel, calling 
into question the reliability of the clients' convictions. In all four 
separate cases, the litigation ended with the government deciding that 
dismissal of all charges for all four clients was appropriate.
---------------------------------------------------------------------------
    \5\ Brady v. Maryland, 373 U.S. 83 (1963).
---------------------------------------------------------------------------
    The Appellate Division persuaded the trial court to vacate a 
client's murder conviction after a long battle to demonstrate that the 
former Federal prosecutor assigned to the case had committed 
intentional misconduct. Appellate counsel first intervened in the U.S. 
District Court on behalf of the client to make public the results of a 
Justice Department Office of Professional Responsibility report that 
had found that the prosecutor had improperly paid tens of thousands of 
dollars in witness fees to the friends and family of government 
witnesses in a Federal drug and murder conspiracy prosecution. Over the 
government's objection, PDS won an order from the Federal judge 
unsealing the records of the prosecutor's misconduct. Armed with these 
records and with the results of years of investigation, the appellate 
attorney demonstrated that the prosecutor had also improperly paid tens 
of thousands of dollars in witness fees to the friends and relatives of 
government witnesses in the client's case. The United States agreed to 
join in a motion to vacate the client's murder conviction in the 
interests of justice. The client's appeal that the appellate attorney 
had argued before the District of Columbia Court of Appeals en banc was 
also dismissed as part of the agreement.
    Ensuring Quality Representation.--The Division won a motion for a 
new trial based on the ineffective assistance of counsel provided by 
the original, private attorney, who had been paid thousands of dollars 
by the defendant's family but who conducted virtually no investigation 
of the very serious charges against the defendant. The successful 
motion followed painstaking re-investigation of the facts of the case. 
In response, the government elected not to retry the client.

Special Litigation Division
    The Special Litigation Division litigates systemic issues in the 
District of Columbia criminal justice system before every court in the 
District of Columbia--the Superior Court and Court of Appeals in the 
local system, and the District Court, the Court of Appeals, and the 
Supreme Court in the Federal system. These are some of the highlights 
of our litigation:
    Incarcerated Children.--SLD has litigated the lawsuit challenging 
the juvenile detention system in the District, Jerry M., et al. v. 
District of Columbia, et al.\6\, for 19 years, and we are at last 
hopeful of a resolution. The lawsuit and the resulting consent decree 
focus on the conditions of the juvenile detention facilities and on the 
treatment and rehabilitation provided to youths at the facilities to 
reduce their chances of recidivating and increase their chance of 
becoming productive members of the community. Last year, the Division's 
Jerry M. lawyers asked the court to appoint a receiver to oversee the 
District's Youth Services Administration (now the Department of Youth 
Rehabilitation Services) until the consent decree's mandates could be 
met. While the request was pending, the court held the District in 
contempt for violating several consent decree provisions. The District 
then agreed to the appointment of a special arbiter to resolve disputes 
and formulate a new model for juvenile justice in D.C. SLD and the 
District are now well on their way toward the formulation of a 
comprehensive work plan to address the systemic issues that have 
plagued the District's juvenile justice system for years.
---------------------------------------------------------------------------
    \6\ Civil Action No. 1519-85 (IFP).
---------------------------------------------------------------------------
    Eyewitness Identifications.--Eighty percent of recent DNA 
exonerations nationally stemmed from faulty eyewitness evidence. SLD 
has focused on helping to make courtroom eyewitness evidence more 
reliable, and its flaws and limitations more understandable to jurors. 
To support this effort, SLD has collected all the recent scientific 
research and developed model pleadings. Using these resources, SLD has 
worked with the trial lawyers to introduce the testimony of eyewitness 
identification expert witnesses to help inform jurors about the science 
surrounding how various factors such as facts about the offense, the 
witness, or the identification procedure used can affect the 
reliability of a witness's identification.

Community Defender Division
    The Community Defender Division provides services through four 
programs: the Juvenile Services Program, which focuses on children 
confined to the Oak Hill Youth Detention Center in Laurel, Maryland and 
placed in residential facilities across the country; the Community Re-
entry Program, which responds to the legal and social needs of newly 
released D.C. parolees and assists them in making a successful 
transition back into the community; the Institutional Services Program, 
which serves as a liaison to the U.S. Bureau of Prisons to assist D.C. 
Code offenders in the Bureau's custody; and the Community Outreach and 
Education Program, which educates members of the community about their 
legal rights and responsibilities in the criminal justice system.
    Re-entry Programs.--In fiscal year 2005, the Community Re-entry 
Program worked to educate various communities about the issues facing 
PDS's re-entering clients and to identify resources available to them. 
The Community Re-entry Program organized a panel, as part of the Family 
Court Training Series to educate judges and practitioners about what it 
means for a child to have an incarcerated parent. The panel featured a 
formerly incarcerated parent and two youths whose parents have been 
incarcerated for a number of years. The Program also assisted the 
members of the East of the River Clergy-Police-Community Partnership to 
plan a forum for community members, attorneys, social workers, 
employment and drug treatment counselors, and prison ministries. The 
purpose of the forum was to educate these groups about the particular 
issues facing re-entering women.
    Mental Health.--Some of our most challenging clients are severely 
mentally ill persons who are arrested on less serious charges, but 
incarcerated pending trial, and who are without support systems. Their 
incarceration results in the cancellation of all their benefits (SSI, 
SSDI, Medicaid). Without these benefits, our clients lose access to 
affordable housing and some essential services. Because the Community 
Defender Program has been able to take advantage of relationships that 
the Offender Rehabilitation Division staff is developing with a number 
of agencies and with contract providers of mental health services, this 
situation is improving. More of our severely mentally ill clients are 
now able to obtain financial benefits, housing, and intensive 
outpatient mental health services, and in the last year, we have had 
tremendous success helping these clients re-enter the community without 
re-offending.
    Catholic University Group Home Project.--Two years ago, PDS 
approached Catholic University about providing services to girls 
committed to the care of the District of Columbia. PDS assisted in 
developing a proposal, modeled after a successful program in Missouri, 
for creating a girls' group home on the university's campus. The girls 
would receive social services, public health education and services, 
and education support, including special education assistance, from the 
school's graduate programs. The university obtained foundation funding 
to do a feasibility study of the proposed project, which should be 
completed in early May 2005. Officials from the District's Department 
of Youth Rehabilitation Services recently met with the university 
administration to offer technical assistance for the project. Catholic 
University has expressed a strong interest, not just in providing a 
site for and services to the group home, but in offering care such as 
day treatment, encouraging family involvement, partnering with a 
charter or independent school, and offering scholarships to 
``graduates'' of the program. PDS continues to be involved in moving 
this project forward.
    Truancy Initiative.--The Community Defender Program is working 
closely with the Family Court, the D.C. Public Schools, and the D.C. 
School Board to address the truancy problem by developing a program 
modeled after one in Louisville, Kentucky. The initiative is a family 
intervention program created to address the root causes of truancy. A 
community team of judicial officers, school personnel, social services 
providers, mental health providers, and substance abuse rehabilitation 
providers would work together to identify families for whom intensive 
services would help resolve barriers to school attendance. The program 
would be based in the schools, rather than in the courts, allowing the 
team to make weekly visits to the school, with regular contacts by the 
case manager with the family in between the school visits. Like the 
group home project with Catholic University, this is another example of 
PDS recognizing a need and identifying a model that could be modified 
to suit the District.

Parole Division
    The Parole Division, created pursuant to the Lorton Closure 
Initiative, provides required representation to parolees facing 
revocation before the United States Parole Commission.\7\ This Division 
represents nearly 100 percent of all D.C. Code offenders facing parole 
revocation.
---------------------------------------------------------------------------
    \7\ The Revitalization Act shifted responsibility for D.C. parole 
matters from the D.C. Board of Parole to the United States Parole 
Commission. 28 C.F.R. 2.214(b)(1) and 2.216(f).
---------------------------------------------------------------------------
    Law School Program.--The Parole Division expanded its law clinic 
program to include Howard University School of Law students and 
cooperative students from the Northeastern School of Law. Now law 
students in the criminal justice clinics at these two schools and at 
the Georgetown University Law Center receive training on advocating in 
the parole revocation process and become qualified to represent 
parolees facing revocation. PDS has collaborated with these law schools 
to leverage its expertise to ensure that this small division can 
effectively represent almost 100 percent of the parole cases of D.C. 
Code offenders that come before the U.S. Parole Commission.
    Working with the Parole Commission.--PDS's Parole Division 
continues to monitor closely the work of the U.S. Parole Commission and 
to seek out areas of collaboration, such as commenting on proposed 
parole regulations and assisting in the training of new Parole 
Commission hearing examiners in connection with their role in the 
parole revocation process.

Training
    PDS conducts and participates in numerous training programs 
throughout the year. The annual Criminal Practice Institute and the 
Summer Criminal Defender Training Program address the training needs of 
the court-appointed CJA attorneys and investigators. In fiscal year 
2005, PDS attorneys and investigators also taught sessions at almost 
all of the D.C. law schools, including the law schools at Georgetown 
University, Catholic University, American University, and Howard 
University. PDS attorneys were also invited to teach elsewhere locally, 
including at the D.C. Bar, the National Legal Aid and Defender 
Association, and the Defender Services Division of the Administrative 
Office of the U.S. Courts.
    Forensic Science Conference.--The first forensic science conference 
held by PDS in 2003 was such a success, allowing D.C. defense attorneys 
to learn forensic science issues from national experts, that the 
grantor awarded funding for a second conference. In 2004, PDS sponsored 
``An Interactive Crime Scene Investigation,'' a 2-day conference open 
to judges, lawyers, mental health professionals, and investigators. The 
second day was an interactive training session using a single case to 
study fingerprinting technology, blood spatter evidence, and the 
information scientists can glean from bodily injuries.
    The next forensic science conference is scheduled for September 
2005; it will serve as a ``DNA college'' for trial attorneys. Using the 
expertise PDS's Trial Division has developed in challenging nuclear DNA 
evidence, mitochondrial DNA evidence, and cases arising out of database 
searches, and in anticipation of the President's initiative to reduce 
the backlog of DNA cases and better educate lawyers and judges about 
DNA evidence, PDS is planning a conference to promote quality 
representation in cases that increasingly involve complex scientific 
concepts and technologies.

                     ADMINISTRATIVE ACCOMPLISHMENTS

    PDS's current increased focus on enhancing its administrative 
functions represents a further step toward better serving clients and 
toward better serving as a model defender organization. The right to a 
qualified attorney for people who cannot afford one can be read to 
include an expectation that representation will be provided to clients 
not only effectively, but also efficiently. As PDS has been in the 
forefront in meeting and exceeding the standards defining what it means 
to satisfy the requirements of the right to counsel, PDS can also be on 
the forefront in modeling excellent financial and management practices 
in support of that right.
    Before PDS became a federally funded entity, funding limitations 
compromised our ability to achieve as high a level of proficiency in 
our administrative functioning as we are known for in our legal 
representation. PDS's relatively new status as a federally funded 
entity has created the opportunity for us to enhance our administrative 
functions: in the past 8 years, PDS has established a human resources 
department, an information technology department, and a budget and 
finance department where none previously existed. PDS is working to 
continue this ``administrative maturation.'' We have already adopted 
Federal best practices in a number of support areas, and we are 
preparing to expand their use in other areas as well.
    PDS's strategic planning agenda for executive and administrative 
management follows the President's Management Agenda as the framework 
for managing performance. The fiscal year 2004 accomplishments are 
highlighted within the context of this framework.
    Human Capital.--During the winter of early 2004, PDS for the first 
time formally assessed the staff's view of PDS's working environment. 
Using an independent contractor, PDS surveyed employees' opinions on 
topics such as PDS's commitment to its clients, the demographic 
diversity of PDS's staff, PDS's administrative efficiency, PDS 
management's and line staff's trust in each other, PDS's responsiveness 
to the needs of its employees, and individual job satisfaction. The 
contractor noted that the overall survey results were the most positive 
the contractor had encountered in conducting such employee surveys in 
both private industry and government. All across the demographic 
spectrum, employees felt a strong affinity to the clients, mission, and 
management of PDS. As we reported to this Subcommittee during last 
year's fiscal year 2005 budget hearing, almost 70 percent of employees 
responded to the survey; 99 percent of responding employees reported 
being proud to work for PDS. The independent firm that conducted the 
anonymous survey reported that this was the highest score on this 
question of any organization it has surveyed.
    In fiscal year 2005, PDS continues to develop and review its 
baseline for recruitment, retention, and succession planning programs.
    Competitive Sourcing.--During fiscal year 2004, PDS improved its 
competitive sourcing practices by establishing a fully appointed 
contracting officer and enhancing its acquisition management strategy 
and policies. During fiscal year 2005, PDS has begun reducing the 
number of suppliers for any given product or service the organization 
requires and competing like products and services under larger contract 
proposals. PDS is also contracting for ancillary service needs where 
feasible, practical, and supportive of quality client representation.
    Financial Performance.--At the start of fiscal year 2004, PDS 
implemented a financial management improvement program. The program 
adopts financial best practices, including the use of audited financial 
statements as but one form of measurement. In fiscal year 2004, PDS 
selected a new audit firm and a new accounting service provider. Both 
actions improve PDS's ability to develop financial and performance 
measurement integration, and create efficiencies and effectiveness in 
providing financial services to PDS.
    E-Government.--In order to implement e-government initiatives, PDS 
leverages the capabilities of service providers. During fiscal year 
2004, PDS entered into an agreement with a Federal agency to provide e-
travel service. PDS began receiving that service, which will enhance 
management controls and efficiency, in fiscal year 2005. Also in fiscal 
year 2005, PDS implemented a more fully electronic procurement card 
system that supports the competitive sourcing initiatives. During 
fiscal year 2006, PDS will be better positioned to evaluate other e-
government initiatives that could directly support PDS's mission of 
indigent client representation.
    Budget and Performance Integration.--The success of PDS's financial 
management improvement program, which will assist PDS in executing its 
budget and performance integration, can be measured in part by PDS's 
ability to hold the line in its fiscal year 2006 budget request to the 
level of the President's fiscal year 2005 budget request. During fiscal 
year 2005, PDS is refining its performance measures for subsequent use 
in the development of the fiscal year 2007 budget.

                               CONCLUSION

    I would like to thank the members of the Subcommittee for your time 
and attention to these matters and for your support of our work to 
date. I would be happy to answer any questions the Subcommittee members 
may have.

    Senator Brownback. Judge Wagner, I think you mentioned this 
to me--do you retire this year? Is that right?
    Judge Wagner. I'm sorry?
    Senator Brownback. Are you retiring this year?
    Judge Wagner. Yes, I am. So this may----
    Senator Brownback. You gave me a surprised look, like I let 
a cat out of a bag here, did I?
    Judge Wagner. This is probably my last appearance before 
this body on behalf of the courts. Again, I just want to 
reiterate what a privilege it has been to be in a position to 
see the Congress of the United States in operation and to 
appear on behalf of the people of the District of Columbia and 
the hardworking judges and staff at the courts. Everyone has 
always been courteous and receptive, and I really appreciate 
it, and I want to thank you.
    Senator Brownback. Well, we want to thank you. I mean, 
that's just such a great record of service, it's deeply 
appreciated, and we'll try to make this last presentation not 
like going to the dentist and getting a root canal.
    So it will, hopefully, not be too bad.
    I do want to know, because of recent things that have 
happened in other places in the country about security in the 
courtroom and for judges--I'm sure that's something you've 
looked at a lot--are you comfortable with where we are now for 
your court?
    Judge Wagner. Yes. I think we're pretty comfortable. We 
have a combination security system involving the United States 
Marshals Service, as well as contract security officers who we 
hire. We have done a number of enhancements since 9/11, 
obviously, as everyone else has done. It gave us an 
opportunity, and prompted us, to do a complete security 
assessment, which was conducted by the U.S. Marshals Service. 
We've upgraded our control centers. We've upgraded the security 
in the various buildings. We've done a number of things to make 
sure that the people who enter the building do not have items 
of contraband or items that will be harmful to anyone. We've 
done things about our mail and our courier deliveries. We have 
a 100 percent security check. So we've done a lot of things, 
and they're ongoing.
    Senator Brownback. These latest events have been cases 
where a prisoner overpowered a guard; and another was a home 
attack. The judge in Chicago was actually a Kansan, a native 
Kansan, and her husband and mother were killed. What about 
those types of situations? Are you comfortable where the D.C. 
Courts are there?
    Judge Wagner. Typically, when you have a situation 
involving judges at home, it is some unique or special case 
that is involved. That has been the experience that I'm aware 
of. Arrangements are made when something occurs that makes it 
apparent that something is necessary, beyond the courthouse 
facility itself. It is something that I'm sure that the 
marshals are looking at. Everyone has become more sensitive to 
the various types of risk that exists that we had not, perhaps, 
accounted for before all of the recent events. But I think our 
Marshals Service has pretty good regulations about how they 
handle prisoners, and I can't really address them directly, 
but----
    Senator Brownback. I'm just asking you, you know, is it--
you've been in this system for some period of time. If you're 
comfortable----
    Judge Wagner. Yeah. I only----
    Senator Brownback [continuing]. With where----
    Judge Wagner [continuing]. I've only had a couple of 
incidents, personally, and they were taken care of. The 
marshals came, they found out what the situation was, who made 
what threat, and it was addressed very, very quickly. I think 
that the other situations, for example, a judge in a particular 
trial many, many years ago, I knew, had to have round-the-clock 
Marshals Service. They offer it when it is necessary, because 
of the exigencies of the circumstances.
    Senator Brownback. Okay.
    Where are people held in the District of Columbia pending 
trial or getting ready for trial in the District since we've--
--
    Judge Wagner. D.C. Jail.
    Senator Brownback. A number of people were--we closed 
Lorton down, when I was authorizer, and--where are people held 
now?
    Judge King. They're held in the D.C. Jail----
    Senator Brownback. Where is that----
    Judge King [continuing]. Which is near the----
    Senator Brownback [continuing]. Located now?
    Judge King. It's right south of the armory, near the----
    Senator Brownback. Okay.
    Judge King [continuing]. Baseball stadium and the armory 
and the hospital. My office works fairly closely with the 
warden of the jail and the director of the Department of 
Corrections in managing that flow of persons being brought to 
and from court, and where they're located, and how they're 
classified, once they're sentenced, to go out of the jail and 
into the Federal system.
    Senator Brownback. What's your rough capacity of that 
facility, do you know?
    Judge King. Twenty-two----
    Mr. Quander. Twenty-two-hundred.
    Judge King. Twenty-two-hundred.
    Senator Brownback. Twenty-two-hundred in that? That's a 
large facility.
    Judge King. And it's near capacity. It has not been going 
over, recently, although it's always nip and tuck. It's always 
a close call. It's a struggle to keep it within capacity.
    Senator Brownback. And I'm presuming you hold people in 
there awaiting trial, and then immediately after, until you can 
get them moved into another facility----
    Judge King. That's----
    Senator Brownback [continuing]. In the region.
    Judge King [continuing]. That's exactly correct. In working 
with the Department of Corrections and the Marshals Service and 
others, we've recently reorganized the way the classification 
process takes place so that it's drastically cut down the 
waiting time to get someone classified into the Federal system 
once they've been sentenced. So, we've tried to move that 
process along much more effectively.
    Senator Brownback. How are you doing on your recidivism 
rates of people entering D.C. courts--convictions, and return 
rates? Mr. Quander, I guess that would probably be best to 
throw that to you.
    Mr. Quander. In fiscal year 2003, the rearrest rate for 
offenders who were under our supervision, and who were 
rearrested by the Metropolitan Police Department, were 
approximately 16 percent of everyone that was arrested by the 
Metropolitan Police Department. In 2004, that rate went up to 
18 percent. But that's just the rearrests. When we look at the 
number of individuals who are rearrested, the largest 
percentage of individuals rearrested are rearrested because of 
warrants that we have requested for technical violations or 
other violations. The next-largest group of rearrests are for 
driving offenses--no permit, lack of registration. When you 
look at the actual recidivism number of individuals who were 
rearrested and convicted and incarcerated, it's approximately 6 
percent.
    Senator Brownback. Let me--now, let me challenge you a 
little bit on that. That would be one of the absolute best in 
the Nation, at 6 percent. This is over a 3-year, 5-year 
window----
    Mr. Quander. It's----
    Senator Brownback [continuing]. That you're measuring that?
    Mr. Quander [continuing]. It's moving. What we measured 
fiscal year 2003, the first cohort group. And from 2003 to 
present, those individuals who were rearrested, convicted, and 
incarcerated, it's about 6 percent.
    Senator Brownback. Okay, I may not be asking my question 
quite right, because the nationwide average on this is about 
two-thirds----
    Mr. Quander. Well----
    Senator Brownback [continuing]. Is the recidivism rate, and 
I mean, if you're at 6 percent--and that's fabulous if you're 
at 6 percent, but I maybe--not be asking--and that--I need to 
get you the exact window, whether it's a 3- or 5-year window, 
of rearrests for after a conviction.
    Mr. Quander. Right. And what commonly happens is, it 
depends on the definition of recidivism. That's why I started 
out with our rearrest figures being about 18 percent for this 
fiscal year, but rearrest really doesn't get to recidivism. 
Rearrests--as I indicated, most of the individuals rearrested 
were rearrested because of technical violations, where we 
requested of the Parole Commission to issue a warrant because 
someone has violated technical conditions, or we have requested 
the Superior Court to issue a show-cause order because a person 
is noncompliant. And so, once those warrants are issued, 
individuals are arrested.
    Senator Brownback. Yeah.
    Mr. Quander. But as far as being convicted of new 
offenses----
    Senator Brownback. Let me shape the question in a written 
statement to you so we can get a specific----
    Mr. Quander. Certainly.
    Senator Brownback. And if you could spend a little time 
going through that, I would appreciate you looking at what the 
recidivism rate is in the District--is there--there's a pretty 
set definition of these, and I want to--let me get it to you in 
writing, if you don't mind trying to----
    Mr. Quander. Certainly.
    Senator Brownback [continuing]. To take it that way.
    [The information follows:]

    The Bureau of Justice Statistics (BJS) reports that 67.5 percent of 
prisoners released in 1994 were rearrested, and 46.9 percent 
reconvicted, within 3 years. BJS states that these statistics ``come 
closest to providing a `national' recidivism rate for the United 
States.'' \1\ Can CSOSA provide comparable recidivism statistics?
---------------------------------------------------------------------------
    \1\ Bureau of Justice Statistics, ``Reentry Trends in the U.S.,'' 
cited from web site: http://www.ojp.usdoj.gov/bjs/reentry/
recidivism.htm.
---------------------------------------------------------------------------
    When asked about CSOSA's recidivism rate in a hearing before the 
Senate Committee on Appropriations, Director Paul A. Quander, Jr. 
responded by citing three statistics that, together, offer a current 
picture of recidivism among the supervised population:
  --About 14 percent of all individuals arrested by the Metropolitan 
        Police Department in fiscal year 2004 were under CSOSA 
        supervision;
  --Almost half of these arrests were for previous warrants; violations 
        of supervision conditions; or offenses related to public order 
        or motor vehicles;
  --About 6 percent of the total supervised population was convicted of 
        a new offense in fiscal year 2004.
    These statistics, while revealing, cannot be compared to the Bureau 
of Justice Statistics' ``national'' recidivism rate. The reason for 
this is simple: Until very recently, CSOSA did not have the raw data 
necessary to generate comparable statistics. CSOSA reports the 
percentage of the total supervised population that was arrested in a 
given year; BJS reports the cumulative percentage of a cohort that was 
arrested during a three year-period.
Past Data Issues
    Prior to January 2002, when the agency's automated case management 
system (SMART) came online, the agency lacked reliable historical case 
data. This undermined efforts to report long-term outcomes. Because of 
these problems, CSOSA developed an incremental methodology for 
reporting recidivism--to report only the data we could trust, and to 
expand our reporting as data quality improved. We started with manual 
collection of parole rearrest, expanding to probation and fully 
automated reporting after SMART came on-line.
    CSOSA's annual parole rearrest rate averaged 17 percent over the 
past three years (since SMART implementation). While this number is not 
comparable to BJS's data for the reasons discussed above, it is a 
reliable indicator of annual rearrest among a comparable population 
(offenders who have been released from prison). It should be noted that 
CSOSA's rearrest statistics will never be completely comparable to 
BJS's because BJS includes all released offenders, regardless of 
whether they had a post-release supervision obligation.
    BJS's measurement of reconviction also follows a three-year cohort. 
For the reasons discussed above, CSOSA is unable to duplicate that 
measurement. Reporting of conviction is further complicated by the fact 
that this data must be obtained from Superior Court. CSOSA and the 
court are currently working to improve automated data-sharing 
mechanisms. For fiscal year 2003, the last year for which data are 
available, the reconviction rate was approximately 6 percent of the 
total probation and parole population.
Planned Improvements
    Beginning in the spring of 2005, CSOSA's Office of Research and 
Evaluation will initiate a recidivism measurement study using three 
distinct indicators: arrest for a new charge, conviction of a new 
charge, and incarceration for a new charge. The initial study will 
focus on a two-year cohort because SMART data validation was not 
completed until the fall of 2002; therefore, only two complete years of 
data are available. However, the initial study will be used to 
establish a methodology that will apply to subsequent cohorts as well. 
Beginning with this study, CSOSA will establish a ``rolling'' 
recidivism measurement. That is, the initial two-year cohort will 
become the first three-year cohort, and a second three-year cohort will 
be established starting the day after the ``cutoff'' for the first 
cohort.
    This study will generate multi-year data that is comparable to the 
BJS reports. Preliminary results will be available in the summer of 
2005. We will supply them to the Committee as soon as possible.

    Senator Brownback. Are there particular things you're doing 
to reduce your recidivism rates that you've found to be 
particularly successful?
    Mr. Quander. Yes, we are. One of the biggest things that 
we're doing is, we're imposing graduated sanctions upon the 
offenders. And, essentially, what that allows us to do is to 
address a problem or a deficiency very quickly, so that there's 
a direct consequence for inappropriate behavior. That way, we 
don't have to run back to court or to the U.S. Parole 
Commission before we can address it. The court has given us 
certain authority to supervise offenders and to impose certain 
sanctions. For example, if a person misses an appointment, 
there's an--a sanction that is immediately placed on that 
person. It may be----
    Senator Brownback. What? What would be----
    Mr. Quander. It could be community service. It could be a 
meeting with not only his CSO, but the supervisor. If that 
individual is being supervised at a medium level, it could be 
increased to maximum. If he's reporting once a week, we could 
increase the reporting to twice a week. If he has other 
violations, we have a Day Reporting Center, whereby we can 
ask--make that individual come to our office and spend--there's 
a continuum of services for an 8-week period, where that person 
would have to report and be monitored and partake in services 
that deal with anger management, time management, adult basic 
education. It's a complete program that we have.
    We also have sanctions for community services. If an 
individual violates, then, on a weekend, he has to perform 6 to 
8 hours worth of cleanup in the city to help out various 
community groups that are doing cleanup projects around the 
city.
    We also have global positioning equipment that we use to 
sanction individuals, so that we can place curfews on 
individuals--curfews in the evenings or curfews on the 
weekend--so we can, essentially, place someone on house arrest 
for an evening or a weekend as a sanction.
    Senator Brownback. How many of the people do you have on 
that GPS-type system now, that you're supervising?
    Mr. Quander. Beginning of this month, we have 60 
individuals that are currently on the GPS system.
    Senator Brownback. And then you just have somebody that 
monitors--or the system just records, ``Here's where they're 
moving to and through and''----
    Mr. Quander. Each individual on the system is monitored by 
a CSO, his community supervision officer, or probation and 
parole officer. That parole officer, or CSO, gets a report 
every morning that will show where this person has moved, if 
there were any violations noted. We'll use it in our domestic 
violence cases to enforce stay-away orders, and there will be 
an alert that is issued, not only to the CSO, but to the 
offender, as well, that he's entering a stay-away or an 
exclusion zone. That way, there is no confusion as to where a 
person is supposed to be. It also makes it significantly easier 
when you have to report an individual for a violation, and it 
cuts down on disputes as to whether or not a person was there 
or not. There really is no dispute whatsoever.
    Senator Brownback. Yeah. What--if you've got a domestic 
violence situation, do you have some people being supervised 
with the GPS in that?
    Mr. Quander. Yes.
    Senator Brownback. Do you warn the person that has been the 
subject of the violence if that individual comes near, in your 
GPS system?
    Mr. Quander. Yes. We have regular contact----
    Senator Brownback. In realtime?
    Mr. Quander. Not in realtime. It's--we get the reports the 
next morning. However, the CSO has the ability to log on to the 
computer, his computer at his or her workstation, and will 
receive the information realtime if they log on to it. So----
    Senator Brownback. The reason I asked that is, I remember, 
with my own law practice, in having some of these cases come 
up, where they're just--the fear that the person that's the 
recipient of the violence lives under that this person's going 
to be around, and if there would be a way to warn them in 
realtime, I would just think there would be a reduction of that 
fear in----
    Mr. Quander. What we do is, we maintain contact with the 
victims. And the CSOs have a standard relationship with them. 
So we're sharing information. So we let them know what the 
parameters are, that an individual offender is on GPS, ``If you 
see the individual, call.''
    We also have notification that can be given to the 
individual CSO to receive a page or a notice alert to a cell 
phone. So if we set it up that way, the CSO will receive the 
notice that there is a violation, the CSO then can call the 
victim and let the victim know that the offender is in a 
prohibited area.
    Senator Brownback. Do they do that?
    Mr. Quander. It's being done.
    Senator Brownback. Okay. Good.
    And, Ms. Buchanan, thank you for your work in that field. I 
did some public defender work myself, years ago, in Manhattan--
Manhattan, Kansas--and it was rewarding work, and it's 
important work. I appreciated the report and the satisfaction 
that you've had within that system.
    Ms. Buchanan. Thank you.
    Senator Brownback. So I appreciate very much what you're 
doing.
    Ms. Buchanan. Thank you.
    Senator Brownback. Thank you all very much for the 
information that you're presenting. And the budgetary 
information, we'll review. And I appreciate, particularly, as 
well, the pictures of the courthouse where a lot of the funding 
increase is going toward in the capital structure. Those are 
beautiful facilities. I was down there yesterday, and just 
glanced at the facilities, but they were impressive looking 
structures. But as any, I mean, they have some show of wear and 
tear in different places, and it's--be good to get those 
upgraded.
    Anything further you'd care to add?
    Judge Wagner. If I did not ask to have my written statement 
made a part of the record, I would do so now.
    Senator Brownback. It will be, and all of your written 
statements will be placed in the record.
    So, thank you all very much for joining us. We'll be taking 
the budget on up and working together on it as a subcommittee.

                     ADDITIONAL COMMITTEE QUESTIONS

    The record will remain open the requisite number of days. 
And I will be submitting one question to you, if I could, Mr. 
Quander. If you could take some time to look at that 
recidivism-rate issue, I would appreciate that.
    Mr. Quander. Yes, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]

              Questions Submitted to Paul A. Quander, Jr.

              Questions Submitted by Senator Sam Brownback

                     COMMUNITY SUPERVISION PROGRAM

    Question. CSOSA's fiscal year 2002 Appropriation included 
$13,015,000 in no-year funds to renovate Karrick Hall or some other 
facility for use as CSOSA's Reentry and Sanctions Center. What is the 
status of the renovations?
    Answer. In fiscal year 2002 Congress appropriated $13,015,000 in 
no-year funds for the renovation of the entire eight-floor Karrick 
Hall. The renovations would expand the existing Assessment and 
Orientation Center into a Reentry and Sanctions Center. The expanded 
facility will provide a 30-day assessment and treatment readiness 
program for defendants and offenders with long-term substance abuse 
problems. The program will also be used as a residential sanction for 
offenders under CSOSA supervision.
    In September 2002, CSOSA signed a long-term lease (10 years) with 
the District of Columbia for the use of Karrick Hall as CSOSA's Reentry 
and Sanctions Center. Renovations at Karrick Hall are scheduled to be 
completed and the facility ready for full operations in early fiscal 
year 2006.
    The completed Reentry and Sanctions Center will consist of six 
program units: four for males, one for females, and one for offenders/
defendants with mental health diagnoses. The population will be drawn 
from the following sub-groups:
  --Offenders from BOP facilities released to CSOSA community 
        supervision;
  --Misdemeanants or pretrial detainees under the supervision of the 
        District of Columbia Department of Corrections (DCDC);
  --Split-sentence probationers released by DCDC to CSOSA supervision; 
        and
  --Offenders under CSOSA supervision with pending violations.
    During renovations at Karrick Hall, operation of the existing 
Assessment and Orientation Center (AOC) program has been temporarily 
relocated to 1301 Clifton Street, which has capacity for 27 beds. Once 
completed, Karrick Hall will have six units, approximately 100 beds and 
capacity to treat 1,200 offenders and defendants annually. Offenders/
defendants remain in the unit for approximately 30 days and undergo a 
structured pre-treatment program operating 7 days per week. During the 
program, participants cannot leave the facility or receive visitors. 
After completing the 30-day program, the majority of offenders/
defendants are referred to residential or intensive outpatient drug 
treatment as the next phase in their transition.
    Question. Describe the Reentry and Sanctions Center program and its 
potential public safety benefits.
    Answer. In describing the potential value of the RSC, it is useful 
to place the facility in the context of both the national debate 
surrounding offender reentry and the discussion of best practices in 
substance abuse treatment. The two are inextricably connected. The 
Bureau of Justice Statistics estimates that approximately 600,000 
individuals are released from State and Federal prisons each year. The 
majority (50 to 70 percent) report a history of substance abuse,\1\ but 
only one in ten State prisoners and one in nine Federal prisoners 
reports receiving treatment during incarceration.\2\
---------------------------------------------------------------------------
    \1\ Cited in Taxman, Faye, ``Effective Practices for Protecting 
Public Safety through Substance Abuse Treatment.'' Washington, D.C.: 
National Institute on Drug Abuse, 2004.
    \2\ Bureau of Justice Statistics, ``Substance Abuse and Treatment, 
State and Federal Prisoners, 1997.'' Washington, D.C.: U.S. Department 
of Justice, 1999.
---------------------------------------------------------------------------
    The connection between substance abuse and crime has been well 
established. Long-term success in reducing recidivism among drug-
abusing offenders, who constitute the majority of individuals under 
CSOSA's supervision, depends upon two key factors:
  --Identifying and treating drug use and other social problems among 
        the defendant and offender population; and
  --Establishing swift and certain consequences for violations of 
        release conditions.
    National research supports the conclusion that treatment 
significantly reduces drug use. A study conducted by the Department of 
Health and Human Services Substance Abuse and Mental Health Services' 
Administration (SAMHSA) found a 21 percent overall reduction in the use 
of drugs following treatment; a 14 percent decrease in alcohol use; 28 
percent in marijuana use; 45 percent in cocaine use; 17 percent in 
crack use; and a 14 percent reduction in heroin use.\3\ CSOSA's 
preliminary analysis of the effectiveness of its treatment programming 
echoes these findings. A study of CSOSA offenders referred to treatment 
in fiscal year 2001 revealed a 20 percent reduction in substance use. 
In the year prior to treatment, offenders were testing positive at a 
rate of 37 percent. The rate of positive tests among this population 
dropped to 17 percent in the year following treatment.
---------------------------------------------------------------------------
    \3\ Office of Applied Studies. Services Research Outcome Study 
(SROS). DHHS Publication No. (SMA) 98-3177. Rockville, MD: Department 
of Health and Human Services, Substance Abuse and Mental Health 
Services Administration, Office of Applied Studies, 1998.
---------------------------------------------------------------------------
    While reduction in drug use is encouraging, the benefits of drug 
treatment are proven to extend well beyond this basic measure. There is 
substantial research that demonstrates the impact of substance abuse 
treatment on criminal behavior. One national study showed a 45 percent 
reduction in predatory crime in the 2 years following treatment.\4\ 
Another study compared criminal activity during the 12 months prior to 
treatment with the activity 12 months following treatment and found a 
78 percent decrease in drug sales, 82 percent decrease in shoplifting, 
and 78 percent decrease in physical altercations. The same study showed 
a 51 percent decrease in arrests for drug possession and a 64 percent 
decrease in arrests overall.\5\
---------------------------------------------------------------------------
    \4\ Hubbard, R.L.; Marsden, M.E.; Rachal, J.V.; Harwood, H.J.; 
Cavanuagh, E.R.; and Ginzburg, H.M. Drug Abuse Treatment--A National 
Study of Effectiveness. Chapel Hill, NC: University of North Carolina 
Press, 1989.
    \5\ Gerstein, D.R.; Datta, A.R.; Ingels, J.S.; Johnson, R.A.; 
Rasinski, K.A.; Schildhaus, S.; Talley, K.; Jordan, K.; Phillips, D.B.; 
Anderson, D.W.; Condelli, W.G. ; and Collins, J.S. The National 
Treatment Evaluation Study. Final Report. Rockville, MD: Substance 
Abuse and Mental Health Services Administration, Center for Substance 
Abuse Treatment, 1997.
---------------------------------------------------------------------------
    The goal of treatment is to return the individual to productive 
functioning in the family, workplace, and community. Not only can 
treatment reduce drug use and criminal behavior, it can also improve 
the prospects for employment, with gains of up to 40 percent after a 
single treatment episode. Treatment therefore increases the offender's 
chances for successful reentry in all areas of his or her life.
    In order for the potential positive effects of treatment to be 
realized, the individual must be receptive and committed to it. The 
American Society of Addiction Medicine's Patient Placement Criteria for 
the Treatment of Substance Abuse Disorders classify ``Readiness to 
Change'' as a critical dimension of assessment. The ASAM standards 
state (page 6):

    ``. . . [A]n individual's emotional and cognitive awareness of the 
need to change and his or her level of commitment to and readiness for 
change indicate his or her degree of cooperation with treatment, as 
well as his or her awareness of the relationship of alcohol or other 
drug use to negative consequences . . .  [I]t is the degree of 
readiness to change that helps to determine the setting for and 
intensity of motivating strategies needed, rather than the patient's 
eligibility for treatment itself.\6\''
---------------------------------------------------------------------------
    \6\ American Society of Addiction Medicine, Inc. ASAM Patient 
Placement Criteria for the Treatment of Substance-Related Disorders 
(Second Edition-Revised). Chevy Chase, MD: American Society of 
Addiction Medicine, Inc., 2001.

    The value of pre-treatment assessment and treatment readiness 
programming for individuals under criminal justice supervision has also 
---------------------------------------------------------------------------
been noted. As Dr. Faye Taxman writes:

    ``Pretreatment activities are critical to improving the client's 
commitment to behavior change, motivation, and adjustment to the 
treatment process. Readiness usually deviates from traditional 
psychosocial education groups by working on motivational issues instead 
of educational issues. In many cases, this requires the development of 
verbal skills; the identification of feelings and emotions are part of 
the process of committing to change.\7\''
---------------------------------------------------------------------------
    \7\ Taxman, Faye, Ph.D. ``Unraveling 'What Works' for Offender in 
Substance Abuse Treatment,'' National Drug Court Institute Review, Vol. 
II, No. 2, 1999.

    The issue of ``desire to change'' becomes particularly critical for 
individuals with long-term histories of substance abuse and 
inconsistent or ineffective past treatment experiences. These 
individuals may be highly skeptical of the value of treatment and 
reluctant to participate actively. They will also usually present other 
physical or emotional issues that must be treated concurrently with the 
substance abusing behavior.
    The Reentry and Sanctions Center (RSC) at Karrick Hall will provide 
30 days of intensive assessment and reintegration programming for high-
risk offenders/defendants, as well as residential sanctions for 
offenders/defendants who violate the conditions of their release. Based 
on CSOSA's successful Assessment and Orientation Center (AOC), the RSC 
program is specifically tailored for offenders/defendants with long 
histories of crime and substance abuse who cannot be released directly 
to the community or to inpatient treatment. These individuals are 
particularly vulnerable to both criminal and drug relapse at the point 
of release. Since only about 50 percent of releases to supervision 
transition through halfway houses, this placement option is even more 
valuable.
    The RSC program will also allow CSOSA to impose prompt, meaningful, 
graduated sanctions for violations of release conditions, improving the 
likelihood of a successful supervision outcome. If sanctions can be 
imposed as soon as violating behaviors are detected--and if those 
sanctions predictably increase in force and duration as the behavior 
escalates--then supervision will be more meaningful.
    From its inception, CSOSA has worked with the D.C. Superior Court 
and the U.S. Parole Commission to define a range of sanctions that the 
Community Supervision Officer can impose without the delay of seeking 
judicial or paroling authority approval. CSOSA's authorizing 
legislation, the National Capital Revitalization and Self-Government 
Improvement Act of 1997, empowers the Director of CSOSA to ``develop 
and operate intermediate sanctions programs for sentenced offenders'' 
[Public Law 105-33, Title XI,  11233 (b)(2)(f)]. The idea that CSOSA 
would operate a system of graduated sanctions, including residential 
sanctions, also informed the recommendations of the District of 
Columbia Advisory Commission on Sentencing. In its report to the D.C. 
Council, the Commission stated:

    ``CSOSA is developing a series of graduated sanctions, so that 
penalties short of imprisonment can be imposed. Offenders should have 
ample opportunity to comply with conditions of supervised release 
before the U.S. Parole Commission imposes a term of imprisonment, which 
the Commission considers the punishment of last resort.\8\''
---------------------------------------------------------------------------
    \8\ ``Report of the District of Columbia Advisory Commission on 
Sentencing,'' April 5, 2000, p. 35.

    By increasing Community Supervision Officers' ability to reinforce 
accountability, the Agency will decrease the number of cases in which 
the individual must be reincarcerated to interrupt his or her violating 
behaviors. The RSC will greatly increase both the range of sanction 
options available to CSOSA and the programmatic value of brief 
residential placements.
    The Reentry Policy Council (RPC)'s recent report, summarizing the 
``state of the art'' in reentry programming, recommends that 
``community supervision officers have a range of options available to 
them . . . to address, swiftly and certainly, failures to comply with 
conditions of release'' and that offenders who have violated release 
conditions should be assessed to determine the most appropriate 
response.\9\ Although the use of graduated sanctions is currently under 
review in California and elsewhere, the practice has gained 
considerable credibility in recent years. The RPC report also notes 
that ``[r]esponses that are treatment-oriented . . . have . . . shown 
greater promise than the alternative of re-incarceration.'' \10\ The 
RSC program will provide the option of immediate placement, assessment, 
and stabilization of non-compliant offenders, typically for repeated 
substance abuse violations.
---------------------------------------------------------------------------
    \9\ Report of the Reentry Policy Council: Charting the Safe and 
Successful Return of Prisoners to the Community. Washington, D.C.: 
Reentry Policy Council, 2005. Policy Statement 29.
    \10\ Ibid.
---------------------------------------------------------------------------
    Studies by the Institute for Behavior and Health \11\ found that 
offenders who participated in the Washington/Baltimore HIDTA drug 
treatment program were less likely to commit crimes. The indicator used 
was arrest rate, which is defined as the number of arrests for non-
technical violations per participant in the year before treatment vs. 
the number of arrests for non-technical violations per subject in the 
year following treatment. The 2000 Cohort study reported that the 
overall arrest rate for program participants within the Washington/
Baltimore HIDTA in calendar year 2000 dropped 51.3 percent, from 0.8 to 
0.39. Participants in the Assessment and Orientation Center program 
experienced a 74.5 percent decrease in arrest rates, from 0.94 to 0.24. 
Such public safety benefits are expected to be replicated in the 
Reentry and Sanctions Center.
---------------------------------------------------------------------------
    \11\ ``The Effect of W/B HIDTA-Funded Substance Abuse Treatment on 
Arrest Rates of Criminals Entering Treatment in Calendar Year 2001.'' 
College Park, Md.: Institute for Behavior and Health, June 2004.
---------------------------------------------------------------------------
    Question. What is the funding history for operation of the Reentry 
and Sanctions Center?
    Answer. CSOSA's fiscal year 2004 Appropriation included funding for 
18 positions and limited operations of Karrick Hall. CSOSA's fiscal 
year 2005 Appropriation includes $250,000 in operations funding for 
Karrick Hall. CSOSA's fiscal year 2006 request includes $14,630,000 and 
77 new positions for full-year operation of all six units of the Re-
Entry and Sanctions Center at Karrick Hall.
    Question. What is the annual operating cost of the Reentry and 
Sanctions Center?
    Answer. The annual operating cost, beginning in fiscal year 2006, 
will be approximately $18 million.
    Question. This committee included funds in CSOSA's fiscal year 2004 
appropriation for 27 new positions to provide for increased supervision 
of high-risk sex offenders, mental health cases, and domestic violence 
cases, as well as to expand the use of global positioning system [GPS]-
based electronic monitoring. GPS electronic monitoring employs state of 
the art technology to offender supervision and hold great promise for 
solving crimes and detecting offender movements or patterns that would 
enable CSOSA to take action before he or she commits more crime. This 
technology would appear to be a valuable tool for supervising all high 
risk-risk offenders, and in particular, sex offenders and domestic 
violence offenders in which offenders are supposed to avoid certain 
locations, such as schools or specific residences.
    What is the status of implementing the special supervision 
initiative?
    Answer. Two new Special Supervision Teams (Sex Offender and Mental 
Health) started on March 22, 2004 and are currently supervising 
offenders. Additional Special Supervision CSOs, authorized from the 
fiscal year 2004 Special Supervision initiative, started on January 24, 
2005 and are being allocated to Special Supervision Teams.
    The table below shows the status of CSP Special Supervision as of 
January 31, 2004 (prior to the new fiscal year 2004 Special Supervision 
resources) and as of February 28, 2005. Because of additional Special 
Supervision resources, the overall caseload ratio decreased from 31:1 
to 30:1, despite a 15 percent increase in Special Supervision 
offenders.

----------------------------------------------------------------------------------------------------------------
                                                        January 31, 2004                February 28, 2005
                                               -----------------------------------------------------------------
           Total Special Supervision                                   Caseload                         Caseload
                                                Offenders     CSOs      Ratio    Offenders     CSOs      Ratio
----------------------------------------------------------------------------------------------------------------
Sex Offender..................................        509         17       27:1        567         24       24:1
Mental Health.................................        666         24       27:1        843         30       28:1
Domestic Violence.............................      1,122         31       31:1      1,014         32       32:1
                                               -----------------------------------------------------------------
      Subtotal................................      2,297         72       32:1      2,424         86       28:1
                                               =================================================================
TAP...........................................        296          9       33:1        638         10       63:1
STAR/SAINT HIDTA..............................        321         12       27:1        276         14       19:1
                                               -----------------------------------------------------------------
      TOTAL...................................      2,914         93       31:1      3,338        110       30:1
----------------------------------------------------------------------------------------------------------------

    Question. What is the status of implementing the GPS system? What 
criteria do CSOSA use to determine which offenders are placed under 
electronic or GPS monitoring? Using these criteria, how many offenders 
would be placed on GPS at any given time? How many offenders are 
currently under GPS monitoring?
    Answer. Since inception of the GPS Electronic Monitoring pilot in 
fiscal year 2004, 221 different offenders have been placed on the 
system and as of February 28, 2005, 45 offenders were on GPS Electronic 
Monitoring.
    Question. Is the GPS technology being used for defendants?
    Answer. No. However, if resources become available, the Pretrial 
Services Agency would pilot this type of monitoring for high-risk 
defendants with court orders to stay away from particular persons or 
places.
    Question. Supply the Committee with a description of CSOSA's faith-
based initiative, including the number of offenders who have 
participated in the initiative and any accomplishments to date. Are 
faith-based institutions also providing services to meet offenders' 
needs?
    Answer. CSOSA's faith-based initiative is a collaboration between 
the Agency and the District of Columbia's faith institutions. The 
initiative focuses on developing mechanisms through which offenders on 
supervision can establish permanent connections with the community's 
positive, pro-social institutions. Crime is inextricably linked to the 
individual's alienation from mainstream values. By overcoming that 
alienation, the faith community can help the offender replace negative 
associations and attitudes with positive contact and messages. 
Furthermore, the faith institution can address issues of personal 
accountability and change that are beyond the scope of community 
supervision. The church or temple cannot (and should not) replace law 
enforcement, but it can provide a permanent source of positive contact 
and moral guidance. The Community Supervision Officer represents 
external accountability by enforcing release conditions; the faith 
institution represents internal accountability by stressing spiritual 
growth. In addition, CSOSA recognized from the initiative's inception 
that the District's faith institutions provide many practical support 
services, such as tutoring, job training, food and clothing banks, 
personal and family counseling, and substance abuse aftercare. CSOSA 
wanted to ``tap into'' this important source of community-based 
programming in order to expand the range of support services available 
to offenders.
    The faith initiative's governing body is the CSOSA/Faith Community 
Partnership Advisory Council. Established in 2001, the Advisory Council 
membership represents a range of denominations; efforts are currently 
underway to broaden both the membership of the Council and its 
representational diversity.
    Late in 2001, CSOSA and the Advisory Council chose mentoring as the 
initial focus of the initiative to connect faith institution volunteers 
with offenders returning to the community from prison. A successful 
outreach event was held in January 2002, in which faith institutions 
across the city addressed the issue of reentry and issued a call for 
volunteers. Over 400 people attended our initial mentor information 
meeting in February 2002. Since then, the ``Reentry Worship'' event has 
become an annual citywide occurrence.
    CSOSA and the Advisory Council then established a structure through 
which the mentor program could be coordinated and faith institutions 
could provide services to offenders. The city was divided into three 
clusters, and CSOSA issued a Request for Proposals to establish a 
contractual relationship with a lead institution in each cluster. The 
lead institutions are:
  --Cluster A (Wards 7 and 8)--East of the River Clergy/Police/
        Community Partnership;
  --Cluster B (Wards 5 and 6)--Pilgrim Baptist Church; and
  --Cluster C (Wards 1, 2, 3, 4)--New Commandment Baptist Church.
    Each institution employs a Cluster Coordinator, who coordinates 
mentor and other service referrals and performs outreach to increase 
the involvement of faith institutions in the cluster.
    CSOSA also developed and implemented training programs for both 
mentors and the program coordinators at each faith institution. The 
training familiarizes prospective mentors with the structure and 
requirements of community supervision, the offender profile, and the 
program's administrative and reporting requirements, as well as 
providing role-playing exercise in which mentors encounter the 
challenges of mentoring. To date, approximately 200 mentors and 
coordinators from more than 40 institutions have been trained.
    The initial cohort of 24 returning offenders was ``matched'' with 
mentors in August 2002. Since then, the number of offenders in the 
program has grown to over 100. In 2003, CSOSA expanded the program to 
include inmates at the Bureau of Prisons' Rivers Correctional 
Institution in North Carolina. Rivers houses over 1,000 District of 
Columbia inmates. Thirty-three Rivers inmates were placed with mentors, 
who attended biweekly mentoring sessions conducted through video 
conference technology. All but four of the inmates have been released 
as of February 23, 2004.
    As of March 2005, 52 faith organizations were active in the Faith-
Based Reentry Initiative with diverse denominations, including 
Apostolic, Baptist, Catholic, Muslim, Moorish, Episcopal, Methodist, 
Protestant, and Scientology. More than 275 persons from faith 
organizations have volunteered to mentor offenders as they transition 
from incarceration to the community. While mentoring had been the 
initial focus of services, the Initiative has now evolved to providing 
more than 60 other types of services including addiction counseling, 
jobs and housing assistance, anger management and life skills, health 
and education and literacy. In total, the Initiative now offers 92 
programs throughout the city. (see table below for a listing of the 
types of services offered by the Initiative)

------------------------------------------------------------------------
            Types of Services              Total     A       B       C
------------------------------------------------------------------------
Addiction:
    Alcohol Abuse Counseling............       1  ......  ......       1
    Substance Abuse Counseling..........       9       3       3       3
Psychological and Social:
    Life Skills Training................       4       2       1       1
    Social and Leisure Activities.......       3       2  ......       1
Health:
    AIDS Counseling.....................       1  ......  ......       1
    Medical Services....................       1  ......  ......       1
Education and Literacy:
    GED Training........................       5       2       2       1
    Literacy Training...................       5       2       2       1
Vocational Development:
    Job Skills Training.................       4       1       2       1
    Job Placement.......................       3  ......       1       2
    Computer Training...................       5       4       1  ......
Community Support:
    Food Distribution...................       5       1       2       2
    Clothing Distribution...............       4       1       2       1
    Housing Assistance..................       4       1  ......       3
    Parenting Support...................       1  ......  ......       1
    Family Counseling...................       4       2       1       1
    Day Care............................       4       1       1       2
    Mentoring...........................      29      11       6      12
                                         -------------------------------
      Total No. of Programs.............      92      33      24      35
------------------------------------------------------------------------

    Through grant funding from the U.S. Department of Justice, 
Community Oriented Policing Service (COPS), one of CSOSA lead faith 
institutions, New Commandment Baptist Church, is now able to facilitate 
and expand its ability to intercede, with CSOSA and other faith 
institutions, to improve the likelihood that participating parolees 
will have lower rates of recidivism. CSOSA's network of 
interdenominational faith-based participants will contribute to the 
success of this effort. Collaborating with the District of Columbia 
Jobs Partnership, New Commandment Baptist and other faith institutions 
are able to enroll returning offenders in job readiness training 
programs, educational and vocational training, interviewing skills and 
job placement.
    Another participating faith institution, East of the River Clergy/
Police/Community Partnership, has recently received a grant award from 
the U.S. Department of Labor to facilitate and place returning 
offenders into jobs which offer career opportunities. It is projected 
that the availability of this resource will substantially build the 
capacity of the District of Columbia to better serve the returning 
offenders and their families.
    From the enthusiasm of a core group of concerned citizens, the 
CSOSA faith initiative has grown to a citywide effort involving 
hundreds of individuals in a wide range of activities to support 
returning offenders. We look forward to the initiative's continued 
growth as a sustainable long-term resource that offenders can access 
both during and after their term of supervision.

                        PRETRIAL SERVICES AGENCY

    Question. How many defendants did the Pretrial Services Agency 
supervise over the course of fiscal year 2004? What was the rate of 
rearrest for pretrial defendants while under the supervision of the 
agency? What is the rearrest rate for drug users in contrast to non-
drug users?
    Answer. In fiscal year 2004, the Pretrial Services Agency 
supervised a total of 22,101 defendants (a 6 percent increase over 
fiscal year 2003). The overall rearrest rate for defendants under PSA 
supervision was 14 percent. The rearrest rate for violent crimes was 3 
percent, while the rearrest rate for drug related crimes was 5 percent.
    As would be expected from the research documenting the links 
between drug use and crime, drug-using defendants (defined as those 
with at least one positive drug test) have higher rearrest rates than 
non-drug using defendants. In fiscal year 2004, 23 percent of drug-
using defendants were rearrested as compared to only 6 percent of non-
drug using defendants. Drug using defendants had a rearrest rate of 5 
percent for violent crimes while non-drug using defendants had a 
rearrest rate of only 1 percent for violent crimes.
    Question. What improvements has PSA made to its supervision of 
high-risk defendants?
    Answer. In fiscal year 2004, PSA made as an operating priority 
improving supervision of defendants designated as high-risk to fail to 
appear or commit new crimes while on release. This improvement aimed to 
achieve the following objectives:
  --Eliminate unnecessary restrictions to high-risk supervision 
        placement;
  --Create a more suitable supervision protocol for high-risk 
        defendants identified by the Agency's new risk assessment 
        scheme;
  --Provide more suitable community supervision for formerly halfway 
        house-bound defendants, following the D.C. Department of 
        Corrections' reduction of halfway house beds; and
  --Incorporate electronic monitoring into all facets of high-risk 
        supervision.
    To meet these objectives, in fiscal year 2005, PSA consolidated its 
three high-risk supervision units--Heightened Supervision, Intensive 
Supervision, and Restrictive Community Supervision--into a single High 
Intensity Supervision Program (HISP). Establishing a single high-risk 
supervision unit has allowed PSA to achieve each of the above 
objectives. PSA has reduced the eligibility restrictions for high-risk 
supervision to defendants with outstanding warrants or detainers or who 
have been in poor compliance with high-risk supervision within the past 
60 days. With the introduction of the Agency's new risk assessment 
scheme in June, HISP supervision will be tied to defendants assessing 
at a high level of pretrial misconduct risk. These include defendants 
who are non-compliant with current community-based supervision, who 
have failures to appear for court dates, and who have serious criminal 
histories. The scheme also diverts defendants formerly eligible for 
halfway house placements to the HISP, provided they have a verified 
curfew address. Finally, high-risk defendants in this program either 
receive curfew conditions enforced with electronic monitoring or 
Department of Corrections oversight in a halfway house. Twenty-four 
hour home confinement is administratively imposed for those HISP 
defendants in violation of curfew requirements.
    While it is too early to gauge the success of the consolidation, 
initial data is promising. Since the first quarter of fiscal year 2005, 
PSA's high-risk units have averaged nearly 480 defendants. HISP's 
manager-to-defendant ratio has averaged 1:20. The high-risk's unit's 
responses to defendant infractions also have improved during this time. 
For example, staff responded to 94 percent of electronic monitoring 
infractions in first quarter fiscal year 2005 compared to 81 percent in 
fiscal year 2004, 72 percent of contact infractions (58 percent in 
fiscal year 2004) and 79 percent of drug testing infractions (78 
percent in fiscal year 2004).
    Question. What administrative changes has PSA made to better manage 
its in-house and contracted substance abuse treatment resources?
    Answer. PSA's Strategic Plan commits the Agency to integrate 
substance abuse treatment into pretrial supervision. To meet this 
requirement, PSA's operating budgets since fiscal year 2001 have 
included funding for treatment placement with community-based substance 
abuse treatment programs. The Agency also created a walk-in unit to 
assess treatment needs of supervised defendants, maintained its 
Superior Court Drug Intervention Program (SCDIP) and created the New 
Directions Program. SCDIP and New Directions are in-house treatment 
units that provide outpatient treatment services. New Directions also 
handles outpatient services for defendants completing short-term 
residential placements.
    PSA data indicate that the supervised defendant population's 
treatment needs have stabilized over the past 2 fiscal years: Since 
fiscal year 2003, nearly 85 percent of the Agency's contracted 
treatment budget has gone to residential treatment placements. To 
accommodate this need, PSA has enhanced its in-house treatment capacity 
to over 500 slots, thus allowing more contracted treatment funds to be 
available for residential placements. SCDIP and New Directions 
supervised over 40 percent more defendants in fiscal year 2004 than in 
fiscal year 2003. Both programs together now supervise over 550 
defendants. More internal outpatient placements have allowed PSA to 
increase referrals to community-based treatment vendors. The Agency 
made 58 percent more contracted treatment referrals in fiscal year 2004 
than fiscal year 2003. In total, PSA placed 1,622 defendants in 
treatment during fiscal year 2004.

                          SUBCOMMITTEE RECESS

    Senator Brownback. The hearing's recessed.
    [Whereupon, at 11:30 a.m., Wednesday, April 20, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
